APPENDIX

la
APPENDIX A — ORDER OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED DECEMBER 27, 2018
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-2426, -2427, -2428, -2429, -2430
ARRIS INTERNATIONAL PLC,
Appellant,
v.
CHANBOND, LLC,
Appellee.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor.
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201800570, IPR2018-00572, IPR2018-00573, IPR2018-00574,
and IPR2018-00575.

2a
Appendix A
ON MOTION
Before Prost, Chief Judge, O’Malley and Stoll, Circuit
Judges.
O’Malley, Circuit Judge.
ORDER
ChanBond, LLC moves to dismiss these appeals for
lack of jurisdiction. ARRIS International PLC opposes
the motion. ChanBond replies. The Director of the United
States Patent and Trademark Office moves out of time to
intervene in support of dismissal.
ChanBond is the owner of U.S. Patent Nos. 7,941,822;
8,341,679; and 8,984,565. In September 2015, ChanBond
sued various telecommunications companies in the United
States District Court for the District of Delaware for
infringing those patents. In February 2018, ARRIS
filed five petitions requesting inter partes review (IPR)
of various claims of those patents. In its preliminary
responses, ChanBond argued that the petitions were timebarred under 35 U.S.C. § 315(b) because ARRIS was in
privity with the defendants in the Delaware action and
ARRIS filed its petitions more than a year after the filing
of that complaint. The Board agreed and denied institution
of all five petitions. ARRIS then filed these appeals from
the denial of institution decisions.
ChanBond argues that ARRIS’s appeals are
foreclosed under St. Jude Medical, Cardiology Division,

3a
Appendix A
Inc. v. Volcano Corp., 749 F.3d 1373 (Fed. Cir. 2014). We
agree. As is the case here, the petitioner in St. Jude
appealed from the Board’s decision to deny institution
of IPR based on the Board’s determination that the
petition was time-barred under § 315(b). We explained
the statutory contrast between a “determination . . .
whether to institute” a proceeding, which is “final and
nonappealable,” 35 U.S.C. § 314(d), and the “final written
decision” determining patentability, 35 U.S.C. § 318(a),
and we held that our review authority under 28 U.S.C.
§ 1295(a)(4)(A) does not extend to appeals from decisions
not to institute. St. Jude, 749 F.3d at 1375-76.
Nothing in Wi-Fi One, LLC v. Broadcom Corp., 878
F.3d 1364 (Fed. Cir. 2018) (en banc), undermines that
holding. Wi-Fi One concerned review of the Board’s
§ 315(b) determination in a final written decision, not a
decision denying institution. See id. at 1371. As both Wi­
Fi One and subsequent precedent have reiterated, “[i]f
the Director decides not to institute, for whatever reason,
there is no review.” Saint Regis Mohawk Tribe v. Mylan
Pharm. Inc., 896 F.3d 1322,1327 (Fed. Cir. 2018); see also
Wi-Fi One, 878 F.3d at 1372 (noting that “the agency’s
decision to deny a petition is a matter committed to the
Patent Office’s discretion” (quoting Cuozzo Speed Techs.,
LLC v. Lee, 136 S. Ct. 2131, 2140 (2016))).
ARRIS’s reliance on Arthrex, Inc. v. Smith &
Nephew, Inc., 880 F.3d 1345 (Fed. Cir. 2018), in support of
jurisdiction over these appeals is also misplaced. Far from
review over a non-institution decision, Arthrex concerned
the issue of whether a party could appeal from a final

4a
Appendix A
adverse judgment entered under 37 C.F.R. § 42.73(b).
Arthrex distinguished St. Jude, stating that “St. Jude
did not involve a similar situation, and the availability of
appeal of final adverse judgment decisions was not directly
addressed in that case.” Id. at 1349.
In view of the foregoing, we conclude that we lack
jurisdiction to hear ARRIS’s appeals.
Accordingly,
It Is Ordered That:
(1) The stay of the briefing schedule is lifted.
(2) The Director’s motion to intervene is granted. The
revised official caption is reflected above.
(3) ChanBond’s motion to dismiss is granted. The
appeals are dismissed.
(4) Each side shall bear its own costs.
For The Court
Dec. 27. 2018
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

ISSUED AS A MANDATE: December 27. 2018

5a
APPENDIX B — REDACTED DECISION OF THE
UNITED STATES PATENT AND TRADEMARK
OFFICE, CASE IPR2018-00570, DATED
JULY 20, 2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
ARRIS INTERNATIONAL PLC,
Petitioner,
v.
CHANBOND, LLC,
Patent Owner.
Case IPR2018-00570
Patent 7,941,822 B2
Before JONI Y. CHANG, JENNIFER S. BISK, and
JACQUELINE T. HARLOW, Administrative Patent
Judges.
CHANG, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § SU

6a
Appendix B
I. INTRODUCTION
ARRIS International PLC (“Petitioner”) filed a
Petition requesting an inter partes review of claims
1 and 11 (“the challenged claims”) of U.S. Patent No.
7,941,822 B2 (Ex. 1001, “the ’822 patent”). Paper 1 (“Pet.”).
ChanBond, LLC (“Patent Owner”) filed unredacted and
redacted versions1 of a Preliminary Response (Papers
16 and 17, “Prelim. Resp.”), along with a Motion to Seal
(Paper 15). Patent Owner also filed a Motion to Seal (Paper
8), seeking to seal Exhibits 2008-23, and the Stipulated
Default Protective Order (attached to the Motion to Seal),
which is a copy of the default Protective Order set forth
in Appendix B of the Office Patent Trial Practice Guide
(“Trial Practice Guide”), 77 Fed. Reg. 48,756,48,756 -66
(Aug. 14, 2012). Pursuant to our authorization, Patent
Owner filed a Motion for Additional Discovery (Papers 10
and 11, “Disc. Mot.”); Petitioner filed an Opposition (Papers
13 and 14, “Disc. Opp.”) to the Motion for Additional
Discovery; and Patent Owner filed a Reply (Papers 19 and
20, “Disc. Reply”) to Petitioner’s Opposition.2
For the reasons stated below, we determine that a
privy of Petitioner was served with a complaint alleging
infringement of the ’822 patent more than one year before
(

1. Citations hereinafter correspond to the unredacted
version (Paper 16).
2. Both parties filed unredacted and redacted versions of
their papers, along with corresponding Motions to Seal (Papers
9,12, and 18). Our citations correspond to the unredacted version
of each paper.

7a
Appendix B
the Petition was filed. Consequently, we deny the Petition
as it is time-barred under 35 U.S.C. § 315(b), and dismiss
Patent Owner’s Motion for Additional Discovery as moot.
We also grant each of the parties’ Motions to Seal (Papers
8, 9,12,15, and 18).
Related Matters
The parties indicate that the ’822 patent and two
other related patents, U.S. Patent Nos. 8,341,679 B2
(“’679 patent”) and 8,984,565 B2 (“’565 patent”), are
involved in the following proceedings in the United
States District Court for the District of Delaware
(the “Delaware actions”): ChanBond, LLC v. Atlantic
Broadband Group, LLC, l:15-cv-00842-RGA (D. Del.);
ChanBond, LLC v. Bright House Networks, LLC,
l:15-cv-00843-RGA (D. Del.); ChanBond, LLC v. Cable
One Inc., LLC, l:15-cv-00844-RGA (D. Del.); ChanBond,
LLC v. Cablevision Systems Corp., l:15-cv-00845-RGA
(D. Del.); ChanBond, LLC v: Cequel Communications,
LLC, l:15-cv-00846-RGA (D. Del.); ChanBond, LLC v.
Charter Communications, LLC, l:15-cv-00847-RGA (D.
Del.); ChanBond, LLC v. Comcast Corp., l:15-cv-00848RGA (D. Del.); ChanBond, LLC v. Cox Communications,
Inc., l:15-cv-00849-RGA (D. Del.); ChanBond, LLC v.
Mediacom Communications Corp., l:15-cv-00850-RGA
(D. Del.); ChanBond, LLC v. RCN Telecom Services,
LLC, l:15-cv-00851-RGA (D. Del.); ChanBond, LLC v.
Time Warner Cable Inc., l:15-cv-00852-RGA (D. Del.);
ChanBond, LLCv. WaveDivisionHoldings, LLC, l:15-cv00853-RGA (D. Del.); and ChanBond, LLC v. WideOpen

8a
Appendix B
West Finance, LLC, l:15-cv-00854-RGA (D. Del.).3 Pet.
4-5; Paper 4,1-2.
Petitioner also filed five additional petitions: IPR201800572 and IPR2018-00573 involving the ’679 patent; and
IPR2018-00574 and IPR2018-000575 involving the ’822
patent. Pet. 5.
II. DISCUSSION
The instant Petition was filed on February 2, 2018.
Paper 5, 1. Patent Owner served the defendants in the
Delaware actions with a complaint, alleging infringement
of the ’822 patent on October 1, 2015, more than one
year prior to the filing of the instant Petition. Ex. 2006.
Petitioner was not a named party in the Delaware actions.
Id. Nonetheless, Patent Owner asserts that the instant
Petition is time-barred under 35 U.S.C. § 315(b) because
Petitioner is in privity with the Delaware defendants.
Prelim. Resp. 12-34. Accordingly, the main issue here
is whether at least one of the Delaware defendants is a
privy of Petitioner.
A. Principles of Law
Section 315(b) of Title 35 of the United States Code
provides:

3. In this Decision, we refer the defendants of these Delaware
actions as “the Delaware defendants.”

9a
Appendix B
(b) PATENT OWNER’S ACTION.—An inter
partes review may not be instituted if the
petition requesting the proceeding is filed
more than 1 year after the date on which the
petitioner, real party in interest, or privy of the
petitioner is served with a complaint alleging
infringement of the patent. The time limitation
set forth in the preceding sentence shall not
apply to a request for joinder under subsection
(c).
The legislative history indicates that § 315(b) was
intended to set a “deadline for allowing an accused
infringer to seek inter partes review after he has been
sued for infringement.” 157 Cong. Rec. S5429 (daily ed.
Sept. 8,2011) (statement of Sen. Kyi). The deadline helps
to ensure that inter partes review is not used as a tool for
harassment by “repeated litigation and administrative
attacks.” H.R. Rep. No. 112-98 at 48 (2011), as reprinted
in 2011 U.S.C.C.A.N. 67,78. Hence, “the rationale behind
§ 315(b)’s preclusion provision is to prevent successive
challenges to a patent by those who previously have
had the opportunity to make such challenges in prior
litigation.” WesternGeco LLC v. ION Geophysical Corp.,
889 F.3d 1308,1319 (Fed. Cir. 2018).
The term “privity” is not defined in the statute, but
it “is a well-established common-law term.” Id. at 1317.
“[W]hen Congress uses language with a settled meaning
at common law, Congress presumably knows and adopts
the cluster of ideas that were attached to each borrowed
word -in the body of learning from which it was taken.”

10a
Appendix B
Beck v. Prupis, 529 U.S. 494, 500-01 (2000); see also 154
Cong. Rec. S9987 (daily ed. Sept. 27, 2008) (statement of
Sen. Kyi) (“The concept of privity, of course, is borrowed
from the common law of judgments.”).
The concept of “privity” is more expansive and
encompasses parties that do not necessarily need to
be identified in the Petition as real parties-in-interest.
Trial Practice Guide, 77 Fed. Reg. at 48,759. The term
“privity” is used “more broadly, as a way to express the
conclusion that nonparty preclusion is appropriate on
any ground.” Taylor v. Sturgell, 553 U.S. 880, 894 n.8
(2008) (citing 18A Charles Alan Wright, Arthur R. Miller
& Edward H. Cooper, Federal Practice and Procedure
§ 4449, pp. 351-53, n.33 (2d ed. 2002) (hereinafter “Wright
& Miller”)); WesternGeco, 889 F.3d at 1318-19. The
legislative history endorsed the expression of “privy” as
follows:
The word “privy” has acquired an expanded
meaning. The courts, in the interest of justice
and to prevent expensive litigation, are striving
to give effect to judgments by extending
“privies” beyond the classical description. The
emphasis is not on the concept of identity
of parties, but on the practical situation.
Privity is essentially a shorthand statement
that collateral estoppel is to be applied in a
given case; there is no universally applicable
definition of privity. The concept refers to a
relationship between the party to be estopped
and the unsuccessful party in the prior

11a
Appendix B
litigation which is sufficiently close so as to
justify application of the doctrine of collateral
estoppel.
154 Cong. Rec. S9987 (daily ed. Sept. 27,2008) (statement
of Sen. Kyi) (emphasis added) (citing Cal. Physicians’ Serv.
v. Aoki Diabetes Research Inst., 163 Cal.App.4th 1506
(Cal. App. 2008)); 157 Cong. Rec. S1376 (daily ed. Mar. 8,
2011) (incorporating prior 2008 statement).
The determination of whether a petitioner is in privity
with a time-barred district court party is a “highly factdependent question.” Trial Practice Guide, 77 Fed. Reg.
at 48,759. More importantly, “the standards for the privity
inquiry must be grounded in due process.” WesternGeco,
889 F.3d. at 1319. “[T]he privity inquiry in this context
naturally focuses on the relationship between the named
IPR petitioner and the party in the prior lawsuit.
For example, it is important to determine whether the
petitioner and the prior litigant’s relationship—as it
relates to the lawsuit—is sufficiently close that it can
be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” Id. (emphases added).
In Taylor, the United States Supreme Court identified
a non-exhaustive list of six categories under which
nonparty preclusion based on a privity relationship may be
found: (1) an agreement between the parties to be bound;
(2) pre-existing substantive legal relationships between
the parties; (3) adequate representation by the named
party; (4) the nonparty’s control of the prior litigation;

12a
Appendix B
(5) where the nonparty acts as a proxy for the named
party to re-litigate the same issues; and (6) where special
statutory schemes foreclose successive litigation by the
nonparty (e.g., bankruptcy or probate). Taylor, 553 U.S.
at 893-95,893 n.6. The Supreme Court noted that this list
of the six “established grounds for nonparty preclusion” is
“meant only to provide a framework..., not to establish
a definitive taxonomy.” Id. at 893 n.6. Each ground alone
is sufficient to establish privity between a nonparty and
a named party in the prior litigation. WesternGeco, 889
F.3d at 1319-20.
Here, in our analysis, we mainly address the fourth
Taylor category of nonparty preclusion. For the reasons
stated below, the evidence of record establishes sufficiently
that Petitioner is in privity with a time-barred district
court party because Petitioner had substantial control
over the Delaware actions. As such, it is not necessary
for us to determine whether privity exists based on other
grounds.
Under the fourth Taylor category of nonparty
preclusion, a nonparty to a prior action is bound by a
judgment if that party “‘assume[d] control’ over the
litigation in which that judgment was rendered.” Taylor,
553 U.S. at 895 (citing Montana v. United States, 440
U.S. 147, 154 (1979)). “Courts and commentators agree,
however, that there is no ‘bright-line test’ for determining
the necessary quantity or degree of participation to
qualify as ... ‘privy’ based on the control concept.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (citing Gonzalez v.
Banco Cent. Corp., 27 F.3d 751, 759 (1st Cir. 1994)).

13a
Appendix B
Neither absolute control, nor actual control, is a
requirement for finding of privity. Rather, “it should
be enough that the nonparty has the actual measure of
control or opportunity to control that might reasonably
be expected between two formal coparties.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (quoting Wright
& Miller § 4451); see also WesternGeco, 889 F.3d at 1320.
“Such relationships between a party and a nonparty are
most often found when ... an indemnitor participates
in defending an action brought against its indemnitee.”
Wright & Miller § 4451; Benson & Ford, Inc. v. Wanda
Petroleum Co., 833 F.2d 1172,1174 (5th Cir. 1987); cf. Intel
Corp. v. U.S. Int’l Trade Comm’n, 946 F.2d 821,839 (Fed.
Cir. 1991) (finding that “an indemnification agreement,
in other cases, has alone been enough to find privity”)
(citing Urbain v. Knapp Bros. Mfg. Co., 217 F.2d 810 (6th
Cir. 1954); Weyerhaeuser Timber Co. v. Bostitch, Inc., 178
F. Supp. 757, 760-61 (D.R.I. 1959)); SpeedTrack, Inc. v.
Office Depot, Inc., 2014 WL 1813292, at *6-7 (N.D. Cal.
May 6, 2014) (ruling that in view of the indemnification
obligations the manufacturer owed to its customer, the
manufacturer was in privity with the customer such that
claim preclusion could apply), affd, 791 F.3d 1317,1324-29
(Fed. Cir. 2015).
“Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty
had the same practical opportunity to control the course
of the proceedings that would be available to a party.”
Wright & Miller § 4451. “The appropriate measure of
control does not require that the named party or parties
totally abandon control to the nonparty.” Id. “A common
consideration is whether the non-party exercised or could

14a
Appendix B
have exercised control over a party’s participation in a
proceeding.” Trial Practice Guide, 77 Fed. Reg. at 48,759
(citing Taylor, 553 U.S. at 895; Wright & Miller § 4451).
With these principles in mind and for the reasons
stated below, we find that Petitioner is in privity with at
least one of the Delaware defendants as the evidence of
record shows that Petitioner had substantial control over
the Delaware actions.
B. Analysis on Privity
As an initial matter, the Board has considered, in
certain cases, the relationship between those alleged to
be in privity at the time of service of the complaint with
regard to the time bar under § 315(b). See, e.g., Nestle
USA, Inc. v. Steuben Foods, Inc., Case IPR2015-00195,
slip op. at 9-10 (Paper 51) (PTAB June 29,2015). As noted
above, the term “privity” is not defined in the statute, but
it “is a well-established common-law term.” WesternGeco,
889 F.3d at 1317. Our reviewing court has explained that
“the privity inquiry in this context naturally focuses on
the relationship between the named IPR petitioner and
the party in the prior lawsuit.” Id. at 1319 (emphases
added). This approach of focusing the privity inquiry on
the relationship during the prior lawsuit, rather than
at the time of service of the complaint (i.e., at the start
of the lawsuit) is consistent with Taylor. Aruze Gaming
Macau, LTD. v. MGT Gaming Inc., Case IPR2014-01288,
slip op. 12-14 (Paper 13) (PTAB Feb. 20, 2015). As the
Supreme Court explained in Taylor, regarding the fourth
category of nonparty preclusion, “a nonparty is bound by

15a
Appendix B
a judgement if she assumed control over the litigation
in which that judgment was rendered.” Taylor, 553 U.S.
at 895 (internal quotation marks and citation omitted)
(emphasis added).
As such, our privity inquiry in the instant processing
focuses on the relationship between Petitioner and the
Delaware defendants during the prior lawsuit. More
specifically, we focus on whether the relationship, as it
relates to the Delaware actions, “is sufficiently close that
it can be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” WesternGeco, 889 F.3d at 1319; Aruze Gaming,
Case IPR2014-01288, slip op. at 15.
We now turn to Parties’ contentions and supporting
evidence. In its Preliminary Response, Patent Owner
argues that Petitioner “had a right to substantially control
the Delaware litigation for years prior to the filing of the
present petition.” Prelim. Resp. 17. As support, Patent
Owner notes that Petitioner’s own public filings with the
Securities and Exchange Commission (“SEC”) establish
the existence of indemnification agreements with several
Delaware defendants. Id. According to Patent Owner,
Petitioner had a legal right to control
the litigation,

Upon consideration of the
evidence before us, we agree with Patent Owner that
Petitioner had substantial control over the Delaware
actions.

16a
Appendix B
Petitioner counters that it is not a privy of the Delaware
defendants. Dis. Opp. 4-6.4 In Support of its contention,
Petitioner argues that it “is not controlling the Delaware
litigation,” and it “has no legal right to do so” because the
complaints and infringement contentions in the Delaware
actions “identify multiple accused products that are
supplied to each of the Defendants by many different
suppliers, of which ARRIS is only one.” Id. Petitioner also
argues that Patent Owner “points to no indemnification
provision and provides no argument that could support a
conclusion that ARRIS has a legal right to control a lawsuit
that involves other suppliers’ products.” Id. Petitioner
avers that “ARRIS could not take responsibility for the
other products accused of infringement, and it could not
have assumed (and did not assume) control over litigation
strategy or settlement.” Id. Petitioner further argues that
“ARRIS’S
■ plainly shows that ARRIS
does not control the litigation.” Id. at 5—6. In Petitioner’s
view, “ARRIS’s agreement to
thus merely
establishes a typical customer-supplier relationship that
controlling authority has held insufficient to establish
privity.” Id. (citing Wi-Fi One v. Broadcom Corp., 887
F.3d 1329 (Fed. Cir. 2018); Nestle, Case IPR2015-00195,
slip op. at 6-17).
4. Petitioner did not present any privity argument in its
Petition. Pet. 6-8. Nor did Petitioner seek leave to file a reply
to Patent Owner’s Preliminary Response. Rather, Petitioner
presents its privity arguments in the Opposition to Patent Owner’s
Motion for Additional Discovery. Although improperly presented,
we nevertheless exercise our discretion to consider Petitioner’s
arguments, and address each of Petitioner’s privity arguments in
turn. See 37 C.F.R. § 42.5.

17a
Appendix B
We are not persuaded by Petitioner’s arguments
because they rest on an erroneous privity standard,
requiring actual and complete control of the entire
litigation. As discussed above, neither absolute control, nor
actual control, is required for finding of privity. Rather,
“it should be enough that the nonparty has the actual
measure of control or opportunity to control that might
reasonably be expected between two formal coparties.”
Trial Practice Guide, 77 Fed. Reg. at 48,759 (citing Wright
& Miller § 4451).
The Board as well as the courts “have found
privity where an entity’s control over the litigation was
substantial, even though not complete.” General Electric
Co. v. TransData, Inc., Case IPR2014-01380 (Paper 34,
9) (P.TAB Apr. 15,2015) (citing Jefferson Sch. of Soc. Sci.
v. Subversive Activities Control Bd., 331 F.2d 76,83 (D.C.
Cir. 1963)). “If a nonparty either participated vicariously in
the original litigation by exercising control over a named
party or had the opportunity to exert such control, then
the nonparty effectively enjoyed his day in court, and it is
appropriate to impute to him the legal attributes of party
status for purposes of claim preclusion.” Gonzalez, 27 F.3d
at 758. “[Preclusion is fair so long as the relationship
between the nonparty and a party was such that the
nonparty had the same practical opportunity to control
the course of the proceedings that would be available to
a party.” Id. (citing Wright & Miller § 4451).
Here, it is undisputed that Patent Owner served the
Delaware defendants with a complaint, more than one
year prior to the filing of the instant Petition, alleging .

(

18a
Appendix B
infringement of the ’822 patent. Ex. 2006. Petitioner
confirms that it is the supplier for at least one of the
allegedly infringing products and has a “customersupplier relationship” with one or more of the Delaware
defendants. Dis. Opp. 5. Petitioner’s SEC Form 10-K dated
February 29, 2016, indicates the following:
On September 21, 2015, [Patent Owner]
ChanBond filed suit against several MSOs
[Multiple Systems Operators] alleging
infringement of three US Patents. Certain
of our customers have requested that we
provide indemnification .... In the event of an
unfavorable outcome, ARRIS may be required
to indemnify the MSOs and/or pay damages for
utilizing certain technology.
Ex. 2002, 5, 31.
Further, it is undisputed that Petitioner has
indemnification agreements with one or more of the
Delaware defendants. See generally Dis. Opp.; Ex. 2002,
31; Exs. 2007—09. Notably, Petitioner’s Corporate Terms
and Conditions of Sale include the following:
22. INDEMNIFICATION. ARRIS will defend
and hold Customer . . . harmless against
damages finally awarded . . . and will, at
ARRIS’ expense, defend any third party claim,
suit, or proceeding (“Claim”) brought against
Customer insofar as such Claim is based on
an allegation that a Product as provided to

19a
Appendix B
Customer directly infringes a valid patent or
copyright. ARRIS will pay Damages as the
result of the Claim provided that (i) Customer
promptly notifies ARRIS of the Claim, (ii)
Customer gives ARRIS all applicable evidence
in Customer’s possession, custody or control,
and (iii) Customer gives ARRIS reasonable
assistance in and sole control of the defense
and all negotiations for its settlement or
compromise.
Ex. 2007, 2 (emphases added). Significantly, under the
indemnification agreement, Petitioner had an obligation
to defend a patent infringement claim brought against
the customer as to Petitioner’s product. Id. Petitioner also
was obligated to indemnify the customer any damages
as the result of the infringement claim. Id. Moreover, the
agreement required the customer to give Petitioner “sole
control of the defense” in order to receive any indemnity
payment.

20a
Appendix B

In short, Petitioner had the opportunity to exercise
“sole control” of those Delaware defendants’ defense.
The evidence in the instant proceeding establishes that
Petitioner had substantial control over the Delaware
actions. Gonzalez, 27 F.3d at 758 (“Substantial control
. . . connotes the availability of the significant degree
of effective control in the . . . defense of the case—what
one might term, in the vernacular, the power—whether
exercised or not—to call the shots.”).
We also are not persuaded by Petitioner’s arguments
that it does not have a right to control the Delaware actions
that involve other suppliers’ products, and that Petitioner’s .
plainly shows that ARRIS does not
control the litigation.” Disc. Opp. 5-7.

21a
Appendix B

In essence, Petitioner “has already had his day in
court” as it had the opportunity to present proofs and
arguments with respect to its own accused product
in the Delaware actions. See Taylor, 553 U.S. at 895
(“Because such a person has had the opportunity to
present proofs and argument, he has already had his
day in court even though he was not a formal party to
the litigation.”) (internal quotation marks and citations
omitted). Petitioner had the same practical opportunity
to control the course of the proceedings that would be
available to the named party. As such, Petitioner had the
actual measure of control or opportunity to control that
might reasonably be expected between formal coparties.

22a
Appendix B
Furthermore, Petitioner’s reliance on Wi-Fi One and
Nestle is misplaced. Disc. Opp. 5-6 (citing Wi-Fi One,
887 F.3d 1329; Nestle, Case IPR2015-00195, slip op. at
6-17). The determination of whether a petitioner is in
privity with a time-barred district court party is a “highly
fact-dependent question.” Trial Practice Guide, 77 Fed.
Reg. at 48,759. The particular facts in those cases are
distinguishable from the instant proceeding.
In Wi-Fi One, the court found that “the evidence
did not show that Broadcom had the right to control that
litigation or otherwise participated in that litigation to the
extent that it should be bound by the results.” Wi-Fi One,
887 F.3d at 1341. In Nestle, the Board explicitly found that
there is no evidence to suggest that the IPR petitioner
financed the district court litigation or prior inter partes
reviews. Nestle, Case IPR2015-00195, slip op. at 12. In
fact, the Board noted that the “Agreement expressly
states that ‘[e]ach party will bear their own legal costs
... in handling the [Patent Owner] Claim (e.g., defending,
filing counterclaims or cross claims ..., etc.).’” Id.
Here, in contrast, Petitioner has a right to substantially
control the Delaware actions. Under the indemnification
agreement, Petitioner had the obligations to defend
the patent infringement claim brought against its
customer as to its accused product. Ex. 2007.

Therefore,

23a
Appendix B
unlike Wi-Fi One and Nestle, the evidence in the
instant proceeding establishes that Petitioner had
substantial control over the Delaware actions. Petitioner’s
involvement was not merely indemnity payments and minor
participation. Rather, Petitioner had the same practical
opportunity to control the course of the proceedings that
would be available to a named party.
In addition, we agree with Patent Owner that cases
where the Board rejected a privity argument based on
indemnification are distinguishable because in those cases,
unlike here, the Board found no sufficient evidence to
show that the petitioner exercised or could have exercised
control over a named party’s participation in the prior
litigation. Prelim. Resp. 32-33; see, e.g., Apple Inc. v.
Achates Reference Publ’g, Inc., Case IPR2013-00080,
slip op. at 12 (PTAB June 2,2014) (Paper 90) (noting that
the agreement “does not give the [indemnitor] the right
to intervene or control [the indemnitee’s] defense to any
charge of patent infringement”).
We also are mindful that, in a prior proceeding
involving the same petitioner,5 the Board rejected patent
owner’s privity argument because,
the Board
found that “Patent Owner does not provide evidence
sufficient to demonstrate that [the named party] provided
prompt notification to Petitioner, and that Petitioner
exercised sole control or full authority according to the
5. The petitioner (ARRIS Group, Inc.) in Case IPR201400746 was the predecessor in interest of Petitioner here (ARRIS
International pic). Ex. 2002,2 (ARRIS Form 10-K dated February
29,2016).

24a
Appendix B
Agreements.” ARRIS Group, Inc. v. C-Cation Techs.,
Case IPR2014-00746, slip op. at 8-10 (Paper 22) (PTAB
Nov. 24, 2014). The Board, in the prior proceeding, also
noted that “absent is evidence of Petitioner’s conduct in the
2011 district court proceeding from which we could infer
that Petitioner exercised control or could have exercised
control as provided for in the Agreements.” Id.
Here, to the contrary, the evidence in the instant
proceeding shows that Petitioner had substantial control
over the Delaware actions. Exs. 2007-23. As discussed
above, Petitioner had the obligation to defend the patent
infringement claim brought against its customer with respect
to its accused product. Id.

Petitioner had the same practical
opportunity to control the course of the proceedings that
would be available to a named party. Therefore, the facts
in the prior proceeding are distinguishable from the
instant proceeding.
In sum, based on the evidence in the entirety of this
record, we find that Petitioner had substantial control over
the Delaware actions. One or more of the defendants of
the Delaware actions was in privity with Petitioner, and
those defendants were served with a complaint, alleging
infringement of the ’822 patent more than one year prior to
the filing of the instant Petition. Therefore, we determine
that the instant Petition is time-barred under § 315(b).

25a
Appendix B
C. Motion for Additional Discovery
In its Motion for Additional Discovery, Patent
Owner indicates that the parties had conferred and
agreed to additional discovery between themselves.
Disc. Mot. 1; 37 C.F.R. § 42.51(b)(2)(i) (“The parties may
agree to additional discovery between themselves.”).
In particular, Petitioner agreed to produce “relevant
indemnification provisions from agreements with the
Delaware defendants, any indemnification claims made by
the defendants, and ARRIS’s responses to those claims.”
Ex. 2035; Ex. 2030,3-4. Petitioner produced the following
documents: several indemnification agreements; letters
from several of the Delaware defendants to Petitioner,
requesting indemnification
and
several response letters from Petitioner to one or more of
the Delaware defendants. Exs. 2009-23.
In its Motion for Additional Discovery, Patent Owner
alleges that Petitioner did not produce the indemnification
agreement and the response letter for each of the
customers that sent indemnification notices to Petitioner.
Disc. Mot. 1-2. Patent Owner requests discovery of
missing documents and interrogatories concerning
Petitioner’s involvement in the Delaware litigation. Id.; Ex.
2033. Patent Owner avers that the requested additional
discovery is necessary in the interests of justice, arguing
that it is beyond speculation that Petitioner was in privity
with the Delaware defendants. Disc. Mot. 2-3.
Under the circumstances of this case, we need not
assess the merits of Patent Owner’s Motion for Additional

26a
Appendix B
Discovery. As discussed above, even without the additional
requested documents and information, the evidence in the
current record establishes sufficiently that Petitioner was
in privity with one or more of the Delaware defendants,
and we determine that the instant Petition is time-barred
under § 315(b).
Accordingly, Patent Owner’s Motion for Additional
Discovery is dismissed as moot.
D. Motions to Seal
Patent Owner filed its First Motion to Seal (Paper 8),
along with a Stipulated Default Protective Order agreed
to by the parties, which is a copy of the Board’s Default
Protective Order and attached to Patent Owner’s First
Motion to Seal. Trial Practice Guide, 77 Fed. Reg. 48,760
(Aug. 14,2012), App’x B. Patent Owner requests the Board
to enter the Stipulated Default Protective Order. Because
the parties agree to the terms of the Board’s Default
Protective Order, we hereby enter the Stipulated Default
Protective Order, which governs the treatment and filing
of confidential information in the instant proceeding.
In its First Motion to Seal, Patent Owner seeks to
seal Exhibits 2008-23, which were produced by Petitioner
pursuant to the Stipulated Default Protective Order, and
designated “CONFIDENTIAL-PROTECTIVE ORDER
MATERIAL” by Petitioner. Exhibits 2008-23 relate to
indemnification agreements between Petitioner and its
customers.

27a
Appendix B
Patent Owner filed its Second Motion to Seal (Paper
9) along with unredacted and redacted versions of its
Motion for Additional Discovery (Papers 10 and 11). Patent
Owner seeks to seal Exhibits 2033 and 2038-42, as well
as portions of its Motion for Additional Discovery, which
discuss the substance of Exhibits 2008-23. Petitioner filed
a Motion to Seal (Paper 12) along with unredacted and
redacted versions of its Opposition (Papers 13 and 14) to
the Motion for Additional Discovery. Petitioner seeks to
seal portions of its Opposition that discuss the substance
of Exhibits 2008-23.
Patent Owner filed its Third Motion to Seal (Paper
15) along with unredacted and redacted versions of its
Preliminary Response (Papers 16 and 17) to Petitioner’s
Opposition to the Motion for Additional Discovery. Patent
Owner seeks to seal portions of its Preliminary Response
that discuss the substance of Exhibits 2008-23,2033, and
2038-42.
Patent Owner filed its Fourth Motion to Seal (Paper
18) along with unredacted and redacted versions of its
Reply (Papers 19 and 20) to Petitioner’s Opposition to the
Motion for Additional Discovery. Patent Owner seeks to
seal portions of its Reply that discuss the substance of
Exhibits 2008-23.
Neither party files an opposition to any of the Motions
to Seal filed in this proceeding.
The record for an inter partes review shall be made
available to the public, except as otherwise ordered,

28a
Appendix B
and a document filed with a motion to seal shall be
treated as sealed until the motion is decided. 35 U.S.C.
§ 316(a)(1); 37 C.F.R. § 42.14. There is a strong public policy
that favors making information filed in inter partes review
proceedings open to the public. Garmin Int’l v. Cuozzo
Speed Techs., LLC, Case IPR2012-00001, slip op. at 1-2
(PTAB Mar. 14,2013) (Paper 34). The moving party bears
the burden of showing that the relief requested should
be granted. 37 C.F.R. § 42.20(c). That includes showing
that the information is truly confidential, and that such
confidentiality outweighs the strong public interest in
having an open record. See Garmin, Case IPR2012-00001,
slip op. at 3. The standard for granting a motion to seal is
good cause. 37 C.F.R. § 42.54.
Having considered the documents at issue, we are .
persuaded that good cause exists to keep the documents
under seal as they related to confidential business
information of Petitioner. In particular, Exhibits 2008-23,
and all other documents that discuss the substance of
these exhibits, relate to indemnification agreements
between Petitioner and its customers. The details of these
agreements are unimportant to the patentability of the
challenged claims. The public’s interest in having access
to the details of these agreements is minimal. Hence, we
agree with the parties that the documents should be kept
under seal.
We hereby grant the Motions to Seal with respect to
the following documents: Exhibits 2008-23, 2033, and
2038-42; and unredacted versions of Patent Owner’s
Preliminary Response (Paper 16), Patent Owner’s

29a
Appendix B
Motion for Additional Discovery (Paper 10), Petitioner’s
Opposition (Paper 13), and Patent Owner’s Reply (Paper
19).
In addition, this Decision is filed under seal, designated
as “For Board and Parties Only” as it discusses and cites
to the documents under seal. The parties are ordered to
file jointly a proposed redacted version of this Decision
within 5 business days from the entry of this Decision.
III. CONCLUSION
For the foregoing reasons, the Petition is time-barred
under § 315(b).
IV. ORDER
In consideration of the foregoing, it is
ORDERED that the Petition is denied, and no trial
is instituted
FURTHER ORDERED that Patent Owner’s Motion
for Additional Discovery is dismissed as moot.
FURTHER ORDERED that Patent Owner’s Motions
to Seal and Petitioner’s Motion to Seal are granted-, the
following papers shall be seal as “Board and Parties Only”:
Exhibits 2008-23, 2033, and 2038-42; and unredacted
versions of Patent Owner’s Preliminary Response (Paper
16), Patent Owner’s Motion for Additional Discovery
(Paper 10), Petitioner’s Opposition (Paper 13), and Patent
Owner’s Reply (Paper 19);

30a
Appendix B
FURTHER ORDERED that the Stipulated Default
Protective Order attached to Patent Owner’s First Motion
to Seal (Paper 8) be entered; and
FURTHER ORDERED that, within 5 business
days from the entry of this Decision, Patent Owner and
Petitioner jointly file a proposed redacted version of this
Decision.

31a
APPENDIX C — REDACTED DECISION OF THE
UNITED STATES PATENT AND TRADEMARK
OFFICE, CASE IPR2018-00572, DATED
JULY 20, 2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
ARRIS INTERNATIONAL PLC,
Petitioner,
v.
CHANBOND, LLC,
Patent Owner.
Case IPR2018-00572
Patent 8,341,679 B2
Before JONI Y. CHANG, JEFFREY S. SMITH, and
DAVID C. McKONE, Administrative Patent Judges.
SMITH, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § SU
I. INTRODUCTION
ARRIS International PLC (“Petitioner”) filed a
Petition requesting an inter partes review of claims 1 and
9 (“the challenged claims”) of U.S. Patent No. 8,341,679 B2

32a
Appendix C
(Ex. 1001, “the ’679 patent”). Paper 1 (“Pet.”). ChanBond,
LLC (“Patent Owner”) filed unredacted and redacted
versions1 of a Preliminary Response (Papers 13 and
14, “Prelim. Resp.”), a Motion to Seal the Preliminary
Response (Paper 12), a Motion to Seal (Paper 8) and the
Stipulated Default Protective Order (attached to the
Motion to Seal), which is a copy of the default Protective
Order set forth in Appendix B of the Office Patent
Trial Practice Guide (“Trial Practice Guide”), 77 Fed.
Reg. 48,756, 48,756-66 (Aug. 14, 2012). Pursuant to our
authorization, Patent Owner filed a Motion for Additional
Discovery (Papers 10 and 11, “Disc. Mot.”); Petitioner
filed an Opposition (Papers 16 and 17, “Disc. Opp.”) to the
Motion for Additional Discovery; and Patent Owner filed
a Reply (Papers 19 and 20, “Disc. Reply”) to Petitioner’s
Opposition.2
For the reasons stated below, we determine that a
privy of Petitioner was served with a complaint alleging
infringement of the ’679 patent more than one year before
the Petition was filed. Consequently, we deny the Petition
as it is time-barred under 35 U.S.C. § 315(b), and dismiss
Patent Owner’s Motion for Additional Discovery as moot.
We also grant the parties’ Motions to Seal (Papers 8, 9,
12,15, and 18).
1. Citations hereinafter correspond to the unredacted
version (Paper 13).
2. Both parties filed unredacted and redacted versions of
their papers, along with corresponding Motions to Seal (Papers
9,15, and 18). Our citations correspond to the unredacted version
of each paper.

33a
Appendix C
Related Matters
The parties indicate that the ’679 patent and two
other related patents, U.S. Patent Nos. 8,948,565 B2
(“’565 patent”) and 7,941,822 B2 (“’822 patent”), are
involved in the following proceedings in the United
States District Court for the District of Delaware
(the “Delaware actions”): ChanBond, LLC v. Atlantic
Broadband Group, LLC, l:15-cv-00842-RGA (D. Del.);
ChanBond, LLC v. Bright House Networks, LLC,
l:15-cv-00843-RGA (D. Del.); ChanBond, LLC v. Cable
One Inc., LLC, l:15-cv-00844-RGA (D. Del.); ChanBond,
LLC v. Cablevision Systems Corp., l:15-cv-00845-RGA
(D. Del.); ChanBond, LLC v. Cequel Communications,
LLC, l:15-cv-00846-RGA (D. Del); ChanBond, LLC v.
Charter Communications, LLC, l:15-cv-00847-RGA (D.
Del.); ChanBond, LLC v. Comcast Corp., l:15-cv-00848RGA (D. Del.); ChanBond, LLC v. Cox Communications,
Inc., l:15-cv-00849-RGA (D. Del.); ChanBond, LLC v.
Mediacom Communications Corp., l:15-cv-00850-RGA
(D. Del.); ChanBond, LLC v. RCN Telecom Services,
LLC, l:15-cv-00851-RGA (D. Del); ChanBond, LLC v.
Time Warner Cable Inc., l:15-cv-00852-RGA (D. Del.);
ChanBond, LLCv. WaveDivision Holdings, LLC, l:15-cv00853-RGA (D. Del.); and ChanBond, LLC v. WideOpen
West Finance, LLC, l:15-cv-00854-RGA (D. Del.).3 Pet.
3-4; Paper 7,1-2. /■

Petitioner also filed four additional petitions:
IPR2018-00574 and IPR2018-00575 involving the ’565
3. In this Decision, we refer the defendants of these Delaware
actions as “the Delaware defendants.”

-

34a
Appendix C
patent; IPR2018-00573 involving the ’679 patent; and
IPR2018-00570 involving the ’822 patent. Pet. 5.
II. DISCUSSION
The instant Petition was filed on February 2, 2018.
Paper 5, 1. Patent Owner served the defendants in the
Delaware actions with a complaint, alleging infringement
of the ’679 patent on October 1, 2015, more than one
year prior to the filing of the instant Petition. Ex. 2006.
Petitioner was not a named party in the Delaware actions.
Id. Nonetheless, Patent Owner asserts that the instant
Petition is time-barred under 35 U.S.C. § 315(b) because
Petitioner is in privity with the Delaware defendants.
Prelim. Resp. 12-33. Accordingly, the main issue here
is whether at least one of the Delaware defendants is a
privy of Petitioner.
A. Principles of Law
Section 315(b) of Title 35 of the United States Code
provides:
b) PATENT OWNER’S ACTION.—An inter
partes review may not be instituted if the
petition requesting the proceeding is filed
more than 1 year after the date on which the
petitioner, real party in interest, or privy of the
petitioner is served with a complaint alleging
infringement of the patent. The time limitation
set forth in the preceding sentence shall not
apply to a request for joinder under subsection
(c).

35a
Appendix C
The legislative history indicates that § 315(b) was
intended to set a “deadline for allowing an accused
infringer to seek inter partes review after he has been
sued for infringement.” 157 Cong. Rec. S5429 (daily ed.
Sept. 8,2011) (statement of Sen. Kyi). The deadline helps
to ensure that inter partes review is not used as a tool for
harassment by “repeated litigation and administrative
attacks.” H.R. Rep. No. 112-98 at 48 (2011), as reprinted
m2011 U.S.C.C.A.N. 67,78. Hence, “the rationale behind
§ 315(b)’s preclusion provision is to prevent successive
challenges to a patent by those who previously have
had the opportunity to make such challenges in prior
litigation.” WesternGeco LLC v. ION Geophysical Corp.,
889 F.3d 1308,1319 (Fed. Cir. 2018),
The term “privity” is not defined in the statute, but
it “is a well-established common-law term.” Id. at 1317.
“[W]hen Congress uses language with a settled meaning
at common law, Congress presumably knows and adopts
the cluster of ideas that were attached to each borrowed
word in the body of learning from which it was taken.”
Beck v. Prupis, 529 U.S. 494,500-01 (2000); see also 154
Cong. Rec. S9987 (daily ed. Sept. 27,2008) (statement of
Sen. Kyi) (“The concept of privity, of course, is borrowed
from the common law of judgments.”).
The concept of “privity” is more expansive and
encompasses parties that do not necessarily need to
be identified in the Petition as real parties-in-interest.
Trial Practice Guide, 77 Fed. Reg. at 48,759. The term
“privity” is used “more broadly, as a way to express the
conclusion that nonparty preclusion is appropriate on

36a
Appendix C
any ground.” Taylor v. Sturgell, 553 U.S. 880, 894 n.8
(2008) (citing 18A Charles Alan Wright, Arthur R. Miller
& Edward H. Cooper, Federal Practice and Procedure
§ 4449, pp. 351-53, n.33 (2d ed. 2002) (hereinafter “Wright
& Miller”)); WesternGeco, 889 F.3d at 1318-19. The
legislative history endorsed the expression of “privy” as
follows:
The word “privy” has acquired an expanded
meaning. The courts, in the interest of justice
and to prevent expensive litigation, are striving
to give effect to judgments by extending
“privies” beyond the classical description. The
emphasis is not on the concept of identity
of parties, but on the practical situation.
Privity is essentially a shorthand statement
that collateral estoppel is to be applied in a
given case; there is no universally applicable
definition of privity. The concept refers to a
relationship between the party to be estopped
and the unsuccessful party in the prior
litigation which is sufficiently close so as to
justify application of the doctrine of collateral
estoppel.
154 Cong. Rec. S9987 (daily ed. Sept. 27,2008) (statement
of Sen. Kyi) (emphases added) (citing Cal. Physicians’
Serv. v. Aoki Diabetes Research Inst., 163 Cal. App. 4th
1506 (Cal. App. 2008)); 157 Cong. Rec. S1376 (daily ed.
Mar. 8, 2011) (incorporating prior 2008 statement).
The determination of whether a petitioner is in privity
with a time-barred district court party is a “highly fact-

37a
Appendix C
dependent question.” Trial Practice Guide, 77 Fed. Reg.
at 48,759. More importantly, “the standards for the privity
inquiry must be grounded in due process.” WesternGeco,
889 F.3d. at 1319. “[T]he privity inquiry in this context
naturally focuses on the relationship between the named
IPR petitioner and the party in the prior lawsuit.
For example, it is important to determine whether the
petitioner and the prior litigant’s relationship—as it
relates to the lawsuit—is sufficiently close that it can
be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” Id. (emphases added).
In Taylor, the United States Supreme Court identified
a non-exhaustive list of six categories under which
nonparty preclusion based on a privity relationship may be
found: (1) an agreement between the parties to be bound;
(2) pre-existing substantive legal relationships between
the parties; (3) adequate representation by the named
party; (4) the nonparty’s control of the prior litigation;
(5) where the nonparty acts as a proxy for the named
party to re-litigate the same issues; and (6) where special
statutory schemes foreclose successive litigation by the
nonparty (e.g., bankruptcy or probate). Taylor, 553 U.S.
at 893-95,893 n.6. The Supreme Court noted that this list
of the six “established grounds for nonparty preclusion” is
“meant only to provide a framework ..., not to establish
a definitive taxonomy.” Id. at 893 n.6. Each ground alone
is sufficient to establish privity between a nonparty and
a named party in the prior litigation. WesternGeco, 889
F.3d at 1319-20.

38a
Appendix C
Here, in our analysis, we mainly address the fourth
Taylor category of nonparty preclusion. For the reasons
stated below, the evidence of record establishes sufficiently
that Petitioner is in privity with a time-barred district
court party because Petitioner had substantial control
over the Delaware actions. As such, it is not necessary
for us to determine whether privity exists based on other
grounds.
Under the fourth Taylor category of nonparty
preclusion, a nonparty to a prior action is bound by a
judgment if that party ‘“assume[d] control’ over the
litigation in which that judgment was rendered.” Taylor,
553 U.S. at 895 (citing Montana v. United States, 440
U.S. 147, 154 (1979)). “Courts and commentators agree,
however, that there is no ‘bright-line test’ for determining
the necessary quantity or degree of participation to
qualify as ... ‘privy’ based on the control concept.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (citing Gonzalez v.
Banco Cent. Corp., 27 F.3d 751, 759 (1st Cir. 1994)).
Neither absolute control, nor actual control, is a
requirement for finding of privity. Rather, “it should
be enough that the nonparty has the actual measure of
control or opportunity to control that might reasonably
be expected between two formal coparties.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (quoting Wright
& Miller § 4451); see also WesternGeco, 889 F.3d at 1320.
“Such relationships between a party and a nonparty are
most often found when ... an indemnitor participates
in defending an action brought against its indemnitee.”
Wright & Miller § 4451; Benson & Ford, Inc. v. Wanda

39a
Appendix C
Petroleum Co., 833 F.2d 1172,1174 (5th Cir. 1987); cf. Intel
Corp. v. U.S. Int’l Trade Comm’n, 946 F.2d 821,839 (Fed.
Cir. 1991) (finding that “an indemnification agreement,
in other cases, has alone been enough to find privity”)
(citing Urbain v. Knapp Bros. Mfg. Co., 217 F.2d 810 (6th
Cir. 1954); Weyerhaeuser Timber Co. v. Bostitch, Inc., 178
F. Supp. 757, 760-61 (D.R.I. 1959)); SpeedTrack, Inc. v.
Office Depot, Inc., 2014 WL 1813292, at *6-7 (N.D. Cal.
May 6, 2014) (ruling that in view of the indemnification
obligations the manufacturer owed to its customer, the
manufacturer was in privity with the customer such that
claim preclusion could apply), affd, 791 F.3d 1317,1324-29
(Fed. Cir. 2015).
“Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty
had the same practical opportunity to control the course
of the proceedings that would be available to a party.”
Wright & Miller § 4451. “The appropriate measure of
control does not require that the named party or parties
totally abandon control to the nonparty.” Id. “A common
consideration is whether the non-party exercised or could
have exercised control over a party’s participation in a
proceeding.” Trial Practice Guide, 77 Fed. Reg. at 48,759
(citing Taylor, 553 U.S. at 895; Wright & Miller § 4451).
With these principles in mind and for the reasons
stated below, we find that Petitioner is in privity with at
least one of the Delaware defendants as the evidence of
record shows that Petitioner had substantial control over
the Delaware actions.

40a
Appendix C
B. Analysis on Privity
As an initial matter, the Board has considered, in
certain cases, the relationship between those alleged to
be in privity at the time of service of the complaint with
regard to the time bar under § 315(b). See, e.g., Nestle
USA, Inc. v. Steuben Foods, Inc., Case IPR2015-00195,
slip op. at 9-10 (Paper 51) (PTAB June 29,2015). As noted
above, the term “privity” is not defined in the statute, but
it “is a well-established common-law term.” WesternGeco,
889 F.3d at 1317. Our reviewing court has explained that
“the privity inquiry in this context naturally focuses on
the relationship between the named IPR petitioner and
the party in the prior lawsuit.” Id. at 1319 (emphases
added). This approach of focusing the privity inquiry on
the relationship during the prior lawsuit, rather than
at the time of service of the complaint (i.e., at the start
of the lawsuit) is consistent with Taylor. Aruze Gaming
Macau, LTD. v. MGT Gaming Inc., Case IPR2014-01288,
slip op. 12-14 (Paper 13) (PTAB Feb. 20, 2015). As the
Supreme Court explained in Taylor, regarding the fourth
category of nonparty preclusion, “a nonparty is bound by
a judgement if she assumed control over the litigation
in which that judgment was rendered.” Taylor, 553 U.S.
at 895 (internal quotation marks and citation omitted)
(emphasis added).
As such, our privity inquiry in the instant processing
focuses on the relationship between Petitioner and the
Delaware defendants during the prior lawsuit. More
specifically, we focus on whether the relationship, as it
relates to the Delaware actions, “is sufficiently close that

41a
Appendix C
it can be fairly said that the petitioner had a.full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” WesternGeco, 889 F.3d at 1319; Aruze Gaming,
Case IPR2014-01288, slip op. at 15.
We now turn to Parties’ contentions and supporting
evidence. In its Preliminary Response, Patent Owner
argues that Petitioner “had a right to substantially control
the Delaware litigation for years prior to the filing of the
present petition.” Prelim. Resp. 17. As support, Patent
Owner notes that Petitioner’s own public filings with the
Securities and Exchange Commission (“SEC”) establish
the existence of indemnification agreements with several
Delaware defendants. Id. According to Patent Owner,
Petitioner had a legal right to control
the litigation,

lUpon consideration of the evidence
before us, we agree with Patent Owner that Petitioner had
substantial control over the Delaware actions.
Petitioner counters that it is not a privy of the Delaware
defendants. Dis. Opp. 4-6.4 In support of its contention,
4. Petitioner did not present any privity argument in its
Petition. Pet. 6-8. Nor did Petitioner seek leave to file a reply
to Patent Owner’s Preliminary Response. Rather, Petitioner
presents its privity arguments in the Opposition to Patent Owner’s
Motion for Additional Discovery. Although improperly presented,

42a
Appendix C
Petitioner argues that it “is not controlling the Delaware
litigation,” and it “has no legal right to do so” because the
complaints and infringement contentions in the Delaware
actions “identify multiple accused products that are
supplied to each of the Defendants by many different
suppliers, of which ARRIS is only one.” Id. Petitioner also
argues that Patent Owner “points to no indemnification
provision and provides no argument that could support a
conclusion that ARRIS has a legal right to control a lawsuit
that involves other suppliers’ products.” Id. Petitioner
avers that “ARRIS could not take responsibility for the
other products accused of infringement, and it could not
have assumed (and did not assume) control over litigation
strategy or settlement.” Id. Petitioner further argues that
“ARRIS’s
plainly shows that ARRIS
does not control the litigation.” Id. at 5-7. In Petitioner’s
view, “ARRIS’s agreement to
thus merely
establishes a typical customer-supplier relationship that
controlling authority has held insufficient to establish
privity.” Id. (citing Wi-Fi One LLC v. Broadcom Corp., 887
F.3d 1329 (Fed. Cir. 2018); Nestle, Case IPR2015-00195,
slip op. at 6-17).
We are not persuaded by Petitioner’s arguments
because they rest on an erroneous privity standard,
requiring actual and complete control of the entire
litigation. As discussed above, neither absolute control, nor
actual control, is required for finding of privity. Rather,
“it should be enough that the nonparty has the actual
we nevertheless exercise our discretion to consider Petitioner’s
arguments, and address each of Petitioner’s privity arguments in
turn. See 37 C.F.R. § 42.5.

43a
Appendix C
measure of control or opportunity to control that might
reasonably be expected between two formal coparties.”
Trial Practice Guide, 77 Fed. Reg. at 48,759 (citing Wright
& Miller § 4451).
The Board as well as the courts “have found
privity where an entity’s control over the litigation was
substantial, even though not complete.” General Electric
Co. v. TransData, Inc., Case IPR2014-01380 (Paper 34,
9) (PTAB Apr. 15,2015) (citing Jefferson Sch. of Soc. Sci.
v. Subversive Activities Control Bd., 331 F.2d 76,83 (D.C.
Cir. 1963)). “If a nonparty either participated vicariously in
the original litigation by exercising control over a named
party or had the opportunity to exert such control, then
the nonparty effectively enjoyed his day in court, and it is
appropriate to impute to him the legal attributes of party
status for purposes of claim preclusion.” Gonzalez, 27 F.3d
at 758. “[Preclusion is fair so long as the relationship
between the nonparty and a party was such that the
nonparty had the same practical opportunity to control
the course of the proceedings that would be available to
a party.” Id. (citing Wright & Miller § 4451).
Here, it is undisputed that Patent Owner served the
Delaware defendants with a complaint, more than one
year prior to the filing of the instant Petition, alleging
infringement of the ’679 patent. Ex. 2006. Petitioner
confirms that it is the supplier for at least one of the
allegedly infringing products and has a “customersupplier relationship” with one or more of the Delaware
defendants. Dis. Opp. 5. Petitioner’s SEC Form 10-K dated
February 29, 2016, indicates the following:

44a
Appendix C
On September 21, 2015, [Patent Owner]
ChanBond filed suit against several MSOs
[Multiple Systems Operators] alleging
infringement of three US Patents. Certain
of our customers have requested that we
provide indemnification .... In the event of an
unfavorable outcome, ARRIS may be required
to indemnify the MSOs and/or pay damages for
utilizing certain technology.
Ex. 2002, 5, 31.
Further, it is undisputed that Petitioner has
indemnification agreements with one or more of the
Delaware defendants. See generally Dis. Opp.; Ex. 2002,
31; Exs. 2007-09. Notably, Petitioner’s Corporate Terms
and Conditions of Sale include the following:
22. INDEMNIFICATION. ARRIS will defend
and hold Customer . . . harmless against
damages finally awarded . . . and will, at
ARRIS’ expense, defend any third party claim,
suit, or proceeding (“Claim”) brought against
Customer insofar as such Claim is based on
an allegation that a Product as provided to
Customer directly infringes a valid patent or
copyright. ARRIS will pay Damages as the
result of the Claim provided that (i) Customer
promptly notifies ARRIS of the Claim, (ii)
Customer gives ARRIS all applicable evidence
in Customer’s possession, custody or control,
and (iii) Customer gives ARRIS reasonable

45a
Appendix C
assistance in and sole control of the defense
and all negotiations for its settlement or
compromise.
Ex. 2007, 2 (emphases added). Significantly, under the
indemnification agreement, Petitioner had an obligation
to defend a patent infringement claim brought against
the customer as to Petitioner’s product. Id. Petitioner also
was obligated to indemnify the customer any damages
as the result of the infringement claim. Id. Moreover, the
agreement required the customer to give Petitioner “sole
control of the defense” in order to receive any indemnity
payment.

46a
Appendix C

In short, Petitioner had the opportunity to exercise
“sole control” of those Delaware defendants’ defense.
The evidence in the instant proceeding establishes that
Petitioner had substantial control over the Delaware
actions. Gonzalez, 27 F.3d at 758 (“Substantial control
. . . connotes the availability of the significant degree
of effective control in the ... defense of the case—what
one might term, in the vernacular, the power—whether
exercised or not—to call the shots”).
We also are not persuaded by Petitioner’s arguments
that it does not have a right to control the Delaware actions
that involve other suppliers’ products, and that Petitioner’s
plainly shows that ARRIS does not
control the litigation.” Disc, Opp. 5-7.

47a
Appendix C

In essence, Petitioner “has already had his day in
court” as it had the opportunity to present proofs and
arguments with respect to its own accused product
in the Delaware actions. See Taylor, 553 U.S. at 895
(“Because such a person has had the opportunity to
present proofs and argument, he has already had his
day in court even though he was not a formal party to
the litigation”) (internal quotation marks and citations
omitted). Petitioner had the same practical opportunity
to control the course of the proceedings that would be
available to the named party. As such, Petitioner had the
actual measure of control or opportunity to control that
might reasonably be expected between formal coparties.
Furthermore, Petitioner’s reliance on Wi-Fi One and
Nestle is misplaced. Disc. Opp. 5-7 (citing Wi-Fi One,
887 F.3d 1329; Nestle, Case IPR2015-00195, slip op. at
6-17). The determination of whether a petitioner is in
privity with a time-barred district court party is a “highly
fact-dependent question.” Trial Practice Guide, 77 Fed.

48a
Appendix C
Reg. at 48,759. The particular facts in those cases are
distinguishable from the instant proceeding.
In Wi-Fi One, the court found that “the evidence
did not show that Broadcom had the right to control that
litigation or otherwise participated in that litigation to the
extent that it should be bound by the results.” Wi-Fi One,
887 F.3d at 1341. In Nestle, the Board explicitly found that
there is no evidence to suggest that the IPR petitioner
financed the district court litigation or prior inter partes
reviews. Nestle, Case IPR2015-00195, slip op. at 12. In
fact, the Board noted that the “Agreement expressly
states that ‘[e]ach party will bear their own legal costs
... in handling the [Patent Owner] Claim (e.g., defending,
filing counterclaims or cross claims ..., etc.).’” Id.
Here, in contrast, Petitioner has a right to substantially
control the Delaware actions. Under the indemnification
agreement, Petitioner had the obligations to defend
the patent infringement claim brought against its
customer as to its accused product. Ex. 2007.

Therefore,
unlike Wi-Fi One and Nestle, the evidence in the
instant proceeding establishes that Petitioner had
substantial control over the Delaware actions. Petitioner’s
involvement was not merely indemnity payments and minor
participation. Rather, Petitioner had the same practical
opportunity to control the course of the proceedings that
would be available to a named party.

49a
Appendix C
In addition, we agree with Patent Owner that cases
where the Board rejected a privity argument based on
indemnification are distinguishable because in those cases,
unlike here, the Board found no sufficient evidence to
show that the petitioner exercised or could have exercised
control over a named party’s participation in the prior
litigation. Prelim. Resp. 32-33; see, e.g., Apple Inc. v.
Achates Reference Publ’g, Inc., Case IPR2013-00080,
slip op. at 12 (PTAB June 2,2014) (Paper 90) (noting that
the agreement “does not give the [indemnitor] the right
to intervene or control [the indemnitee’s] defense to any
charge of patent infringement”).
We also are mindful that, in a prior proceeding
involving the same petitioner,5 the Board rejected patent
owner’s privity argument because,
the Board
found that “Patent Owner does not provide evidence
sufficient to demonstrate that [the named party] provided
prompt notification to Petitioner, and that Petitioner
exercised sole control or full authority according to the
Agreements.” ARRIS Group, Inc. v. C-Cation Techs.,
Case IPR2014-00746, slip op. at 8-10 (Paper 22) (PTAB
Nov. 24, 2014). The Board, in the prior proceeding, also
noted that “absent is evidence of Petitioner’s conduct in the
2011 district court proceeding from which we could infer
that Petitioner exercised control or could have exercised
control as provided for in the Agreements.” Id.
Here, to the contrary, the evidence in the instant
5. The petitioner (ARRIS Group, Inc.) in Case IPR201400746 was the predecessor in interest of Petitioner here (ARRIS
International pic). Ex. 2002,2 (ARRIS Form 10-K dated February
29, 2016).

50a
Appendix C .
proceeding shows that Petitioner had substantial control
over the Delaware actions. Exs. 2007-23. As discussed
above, Petitioner had the obligation to defend the patent
infringement claim brought againstits customer with respect
to its accused product. Id.

had the same practical opportunity
to control the course of the proceedings that would be
available to a named party. Therefore, the facts in the
prior proceeding are distinguishable from the instant
proceeding.
In sum, based on the evidence in the entirety of this
record, we find that Petitioner had substantial control over
the Delaware actions. One or more of the defendants of
the Delaware actions was in privity with Petitioner, and
those defendants were served with a complaint, alleging
infringement of the ’679 patent more than one year prior to
the filing of the instant Petition. Therefore, we determine
that the instant Petition is time-barred under § 315(b).
C. Motion for Additional Discovery
In its Motion for Additional Discovery, Patent
Owner indicates that the parties had conferred and
agreed to additional discovery between themselves.
Disc. Mot. 1; 37 C.F.R. § 42.51(b)(2)(i) (“The parties may
agree to additional discovery between themselves.”).
In particular, Petitioner agreed to produce “relevant
indemnification provisions from agreements with the

51a
Appendix C
Delaware defendants, any indemnification claims made by
the defendants, and ARRIS’s responses to those claims.”
Ex. 2035; Ex. 2030,3-4. Petitioner produced the following
documents: several indemnification agreements; letters
from several of the Delaware defendants to Petitioner,
requesting indemnification
and
several response letters from Petitioner to one or more of
the Delaware defendants. Exs. 2009-23.
In its Motion for Additional Discovery, Patent Owner
alleges that Petitioner did not produce the indemnification
agreement and the response letter for each of the
customers that sent indemnification notices to Petitioner.
Disc. Mot. 1-2. Patent Owner requests discovery of
missing documents and interrogatories concerning
Petitioner’s involvement in the Delaware litigation. Id.; Ex.
2033. Patent Owner avers that the requested additional
discovery is necessary in the interests of justice, arguing
that it is beyond speculation that Petitioner was in privity
with the Delaware defendants. Disc. Mot. 2-3.
Under the circumstances of this case, we need not
assess the merits of Patent Owner’s Motion for Additional
Discovery. As discussed above, even without the additional
requested documents and information, the evidence in the
current record establishes sufficiently that Petitioner was
in privity with one or more of the Delaware defendants,
and we determine that the instant Petition is time-barred
under § 315(b).
Accordingly, Patent Owner’s Motion for Additional
Discovery is dismissed as moot.

52a
Appendix C
D. Motions to Seal
Patent Owner filed unredacted and redacted versions
of its Preliminary Response (Papers 13 and 14), and a
Motion to Seal the Preliminary Response (Paper 12).
Patent Owner also filed a First Motion to Seal (Paper 8)
and a Stipulated Default Protective Order agreed to by the
parties, which is a copy of the Board’s Default Protective
Order and attached to Patent Owner’s First Motion to
Seal. Trial Practice Guide, 77 Fed. Reg. 48,760 (Aug.
14, 2012), App’x B. Patent Owner requests the Board to
enter the Stipulated Default Protective Order. Because
the parties agree to the terms of the Board’s Default
Protective Order, we hereby enter the Stipulated Default
Protective Order, which governs the treatment and filing
of confidential information in the instant proceeding.
In its First Motion to Seal, Patent Owner seeks to
seal Exhibits 2008-23 and portions of its Preliminary
Response that discuss the substance of these exhibits.
Exhibits 2008-23 were produced by Petitioner pursuant
to the Stipulated Default Protective Order, and
designated “CONFIDENTIAL-PROTECTIVE ORDER
MATERIAL” by Petitioner. Exhibits 2008-23 relate to
indemnification agreements between Petitioner and its
customers.
Patent Owner filed its Second Motion to Seal (Paper
9) along with unredacted and redacted versions of its
Motion for Additional Discovery (Papers 10 and 11). Patent
Owner seeks to seal Exhibits 2033 and 2038-42, as well
as portions of its Motion for Additional Discovery, which

53a
Appendix C
discuss the substance of Exhibits 2008-23. Petitioner filed
a Motion to Seal (Paper 15) along with unredacted and
redacted versions of its Opposition (Papers 16 and 17) to
the Motion for Additional Discovery. Petitioner seeks to
seal portions of its Opposition that discuss the substance
of Exhibits 2008—23. Patent Owner filed its Third Motion
to Seal (Paper 18) along with unredacted and redacted
versions of its Reply (Papers 19 and 20) to Petitioner’s
Opposition to the Motion for Additional Discovery. Patent
Owner seeks to seal portions of its Reply that discuss the
substance of Exhibits 2008-23.
Neither party files an opposition to any of the Motions
to Seal filed in this proceeding.
The record for an inter partes review shall be made
available to the public, except as otherwise ordered,
and a document filed with a motion to seal shall be
treated as sealed until the motion is decided. 35 U.S.C.
§ 316(a)(1); 37 C.F.R. § 42.14. There is a strong public policy
that favors making information filed in inter partes review
proceedings open to the public. Garmin Int’l v. Cuozzo
Speed Techns., LLC, Case IPR2012-00001, slip op. at 1-2
(PTAB Mar. 14,2013) (Paper 34). The moving party bears
the burden of showing that the relief requested should
be granted. 37 C.F.R. § 42.20(c). That includes showing
that the information is truly confidential, and that such
confidentiality outweighs the strong public interest in
having an open record. See Garmin, Case IPR2012-00001,
slip op. at 3. The standard for granting a motion to seal is
good cause. 37 C.F.R. § 42.54.

54a
Appendix C
Having considered the documents at issue, we are
persuaded that good cause exists to keep the documents
under seal as they related to confidential business
information of Petitioner. In particular, Exhibits 2008-23,
and all other documents that discuss the substance of
these exhibits, relate to indemnification agreements
between Petitioner and its customers. The details of these
agreements are unimportant to the patentability of the
challenged claims. The public’s interest in having access
to the details of these agreements is minimal. Hence, we
agree with the parties that the documents should be kept
under seal.
We hereby grant the Motions to Seal with respect to
the following documents: Exhibits 2008-23, 2033, and
2038-42; and unredacted versions of Patent Owner’s
Preliminary Response (Paper 13), Patent Owner’s
Motion for Additional Discovery (Paper 10), Petitioner’s
Opposition (Paper 16), and Patent Owner’s Reply (Paper
19).
In addition, this Decision is filed under seal, designated
as “For Board and Parties Only” as it discusses and cites
to the documents under seal. The parties are ordered to
file jointly a proposed redacted version of this Decision
within 5 business days from the entry of this Decision.
III. CONCLUSION
For the foregoing reasons, the Petition is time-barred
under § 315(b).

55a
Appendix C
IV. ORDER
In consideration of the foregoing, it is
ORDERED that the Petition is denied, and no trial
is instituted
FURTHER ORDERED that Patent Owner’s Motion
for Additional Discovery is dismissed as moot.
FURTHER ORDERED that Patent Owner’s Motions
to Seal and Petitioner’s Motion to Seal are granted; the
following papers shall be seal as “Board and Parties Only”:
Exhibits 2008-23, 2033, and 2038-42; and unredacted
versions of Patent Owner’s Preliminary Response (Paper
13), Patent Owner’s Motion for Additional Discovery
(Paper 10), Petitioner’s Opposition (Paper 16), and Patent
Owner’s Reply (Paper 19);
FURTHER ORDERED that the Stipulated Default
Protective Order attached to Patent Owner’s First Motion
to Seal (Paper 8) be entered; and
FURTHER ORDERED that, within 5 business
days from the entry of this Decision, Patent Owner and
Petitioner jointly file a proposed redacted version of this
Decision.

56a
APPENDIX D — REDACTED DECISION OF THE
UNITED STATES PATENT AND TRADEMARK
OFFICE, CASE IPR2018-00573, DATED
JULY 20, 2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
ARRIS INTERNATIONAL PLC,
Petitioner,
v.
CHANBOND, LLC,
Patent Owner.
Case IPR2018-00573
Patent 8,341,679 B2
Before JONI Y. CHANG, JEFFREY S. SMITH, and
DAVID C. McKONE, Administrative Patent Judges.
SMITH, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § SU

57a
Appendix D
I. INTRODUCTION
ARRIS International PLC (“Petitioner”) filed a
Petition requesting an inter partes review of claims
12-14, 26, 27, and 36-40 (“the challenged claims”) of
U.S. Patent No. 8,341,679 B2 (Ex. 1001, “the ’679 patent”).
Paper 1 (“Pet”). ChanBond, LLC (“Patent Owner”) filed
unredacted and redacted versions1 of a Preliminary
Response (Papers 14 and 15, “Prelim. Resp”), a Motion to
Seal the Preliminary Response (Paper 13), and a Motion
to Seal (Paper 9) and the Stipulated Default Protective
Order (attached to the Motion to Seal), which is a copy of
the default Protective Order set forth in Appendix B of
the Office Patent Trial Practice Guide (“Trial Practice
Guide”), 77 Fed. Reg. 48,756, 48,756-66 (Aug. 14, 2012).
Pursuant to our authorization, Patent Owner filed a
Motion for Additional Discovery (Papers 10 and 11, “Disc.
Mot.”); Petitioner filed an Opposition (Papers 16 and 17,
“Disc. Opp.”) to the Motion for Additional Discovery;
and Patent Owner filed a Reply (Papers 19 and 20, “Disc.
Reply”) to Petitioner’s Opposition.2
For the reasons stated below, we determine that a
privy of Petitioner was served with a complaint alleging
infringement of the ’679 patent more than one year before
1. Citations hereinafter correspond to the unredacted
version (Paper 14).
2. Both parties filed unredacted and redacted versions of
their papers, along with corresponding Motions to Seal (Papers
10, 13, 16, and 19). Our citations correspond to the unredacted
version of each paper.

58a
Appendix D
the Petition was filed. Consequently, we deny the Petition
as it is time-barred under 35 U.S.C. § 315(b), and dismiss
Patent Owner’s Motion for Additional Discovery as moot.
We also grant the parties’ Motions to Seal (Papers 9,10,
13,16, and 19).
Related Matters
The parties indicate that the ’679 patent and two
other related patents, U.S. Patent Nos. 8,948,565 B2
(“’565 patent”) and 7,941,822 B2 (“’822 patent”), are
involved in the following proceedings in the United
States District Court for the District of Delaware
(the “Delaware actions”): ChanBond, LLC v. Atlantic
Broadband Group, LLC, l:15-cv-00842-RGA (D. Del);
ChanBond, LLC v. Bright.House Networks, LLC,
l:15-cv-00843-RGA (D. Del.); ChanBond, LLC v. Cable
One Inc., LLC, l:15-cv-00844-RGA (D. Del.); ChanBond,
LLC v. Cablevision Systems Corp., l:15-cv-00845-RGA
(D. Del.); ChanBond, LLC v. Cequel Communications,
LLC, l:15-cv-00846-RGA (D. Del); ChanBond, LLC v.
Charter Communications, LLC, l:15-cv-00847-RGA (D.
Del.); ChanBond, LLC v. Comcast Corp., l:15-cv-00848RGA (D. Del.); ChanBond, LLC v. Cox Communications,
Inc., l:15-cv-00849-RGA (D. Del.); ChanBond, LLC v.
Mediacom Communications Corp., l:15-cv-00850-RGA
(D. Del.); ChanBond, LLC v. RCN Telecom Services,
LLC, l:15-cv-00851-RGA (D. Del.); ChanBond, LLC v.
Time Warner Cable Inc., l:15-cv-00852-RGA (D. Del.);
ChanBond, LLCv. WaveDivision Holdings, LLC, l:15-cv00853- RGA (D. Del.); and ChanBond, LLC v. WideOpen

59a
Appendix D
West Finance, LLC, l:15-cv-00854-RGA (D. Del.).3 Pet.
4-5; Paper 8,1-2.
Petitioner also filed four additional petitions:
IPR2018-00574 and IPR2018-00575 involving the ’565
patent; IPR2018-00573 involving the ’679 patent; and
IPR2018-00570 involving the ’822 patent. Pet. 5.
II. DISCUSSION
The instant Petition was filed on February 2, 2018.
Paper 6, 1. Patent Owner served the defendants in the
Delaware actions with a complaint, alleging infringement
of the ’679 patent on October 1, 2015, more than one
year prior to the filing of the instant Petition. Ex. 2006.
Petitioner was not a named party in the Delaware actions.
Id. Nonetheless, Patent Owner asserts that the instant
Petition is time-barred under 35 U.S.C. § 315(b) because
Petitioner is in privity with the Delaware defendants.
Prelim. Resp. 12-33. Accordingly, the main issue here
is whether at least one of the Delaware defendants is a
privy of Petitioner.
A. Principles of Law
Section 315(b) of Title 35 of the United States Code
provides:
(b) PATENT OWNER’S ACTION.—An inter
partes review may not be instituted if the
3. In this Decision, we refer the defendants of these Delaware .
actions as “the Delaware defendants.”

60a
Appendix D
petition requesting the proceeding is filed
more than 1 year after the date on which the
petitioner, real party in interest, or privy of the
petitioner is served with a complaint alleging
infringement of the patent. The time limitation
set forth in the preceding sentence shall not
apply to a request for joinder under subsection
(c).
The legislative history indicates that § 315(b) was
intended to set a “deadline for allowing an accused
infringer to seek inter partes review after he has been
sued for infringement.” 157 Cong. Rec. S5429 (daily ed.
Sept. 8,2011) (statement of Sen. Kyi). The deadline helps
to ensure that inter partes review is not used as a tool for
harassment by “repeated litigation and administrative
attacks.” H.R. Rep. No. 112-98 at 48 (2011), as reprinted
in 2011 U.S.C.C.A.N. 67,78. Hence, “the rationale behind
§ 315(b)’s preclusion provision is to prevent successive
challenges to a patent by those who previously have
had the opportunity to make such challenges in prior
litigation.” WesternGeco LLC v. ION Geophysical Corp.,
889 F 3d 1308,1319 (Fed. Cir. 2018).
The term “privity” is not defined in the statute, but
it “is a well-established common-law term.” Id. at 1317.
“[W]hen Congress uses language with a settled meaning
at common law, Congress presumably knows and adopts
the cluster of ideas that were attached to each borrowed
word in the body of learning from which it was taken.”
Beck v. Prupis, 529 U.S. 494,500-01 (2000); see also 154
Cong. Rec. S9987 (daily ed. Sept. 27, 2008) (statement of
Sen. Kyi) (“The concept of privity, of course, is borrowed
from the common law of judgments”).

61a
Appendix D
The concept of “privity” is more expansive and
encompasses parties that do not necessarily need to
be identified in the Petition as real parties-in-interest.
Trial Practice Guide, 77 Fed. Reg. at 48,759. The term
“privity” is used “more broadly, as a way to express the
conclusion that nonparty preclusion is appropriate on
any ground.” Taylor v. Sturgell, 553 U.S. 880, 894 n.8
(2008) (citing 18A Charles Alan Wright, Arthur R. Miller
& Edward H. Cooper, Federal Practice and Procedure
§ 4449, pp. 351-53, n.33 (2d ed. 2002) (hereinafter “Wright
& Miller”)); WesternGeco, 889 F.3d at 1318-19. The
legislative history endorsed the expression of “privy” as
follows:
The word “privy” has acquired an expanded
meaning. The courts, in the interest of justice
and to prevent expensive litigation, are striving
to give effect to judgments by extending
“privies” beyond the classical description. The
emphasis is not on the concept of identity
of parties, but on the practical situation.
Privity is essentially a shorthand statement
that collateral estoppel is to be applied in a
given case; there is no universally applicable
definition of privity. The concept refers to a
relationship between the party to be estopped
and the unsuccessful party in the prior
litigation which is sufficiently close so as to
justify application of the doctrine of collateral
estoppel. '\
154 Cong. Rec. S9987 (daily ed. Sept. 27,2008) (statement
of Sen. Kyi) (emphases added) (citing Cal. Physicians’

62a
Appendix D
Serv. v. Aoki Diabetes Research Inst., 163 Cal. App. 4th
1506 (Cal. App. 2008)); 157 Cong. Rec. S1376 (daily ed.
Mar. 8, 2011) (incorporating prior 2008 statement).
The determination of whether a petitioner is in privity
with a time-barred district court party is a “highly factdependent question.” Trial Practice Guide, 77 Fed. Reg.
at 48,759. More importantly, “the standards for the privity
inquiry must be grounded in due process.” WesternGeco,
889 F.3d. at 1319. “[T]he privity inquiry in this context
naturally focuses on the relationship between the named
IPR petitioner and the party in the prior lawsuit.
For example, it is important to determine whether the
petitioner and the prior litigant’s relationship—as it
relates to the lawsuit—is sufficiently close that it can
be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” Id. (emphases added).
In Taylor, the United States Supreme Court identified
a non-exhaustive list of six categories under which
nonparty preclusion based on a privity relationship may be
found: (1) an agreement between the parties to be bound;
(2) pre-existing substantive legal relationships between
the parties; (3) adequate representation by the named
party; (4) the nonparty’s control of the prior litigation;
(5) where the nonparty acts as a proxy for the named
party to re-litigate the same issues; and (6) where special
statutory schemes foreclose successive litigation by the
nonparty (e.g., bankruptcy or probate). Taylor, 553 U.S.
at 893-95,893 n.6. The Supreme Court noted that this list
of the six “established grounds for nonparty preclusion” is
“meant only to provide a framework..., not to establish

63a
Appendix D
a definitive taxonomy.” Id. at 893 n.6. Each ground alone
is sufficient to establish privity between a nonparty and
a named party in the prior litigation. WesternGeco, 889
F.3d at 1319-20.
Here, in our analysis, we mainly address the fourth
Taylor category of nonparty preclusion. For the reasons
stated below, the evidence of record establishes sufficiently
that Petitioner is in privity with a time-barred district
court party because Petitioner had substantial control
over the Delaware actions. As such, it is not necessary
for us to determine whether privity exists based on other
grounds.
Under the fourth Taylor category of nonparty
preclusion, a nonparty to a prior action is bound by a
judgment if that party ‘“assume[d] control’ over the
litigation in which that judgment was rendered.” Taylor,
553 U.S. at 895 (citing Montana v. United States, 440
U.S. 147, 154 (1979)). “Courts and commentators agree,
however, that there is no ‘bright-line test’ for determining
the necessary quantity or degree of participation to
qualify as ... ‘privy’ based on the control concept.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (citing Gonzalez v.
Banco Cent. Corp., 27 F.3d 751, 759 (1st Cir. 1994)).
Neither absolute control, nor actual control, is a
requirement for finding of privity. Rather, “it should
be enough that the nonparty has the actual measure of
control or opportunity to control that might reasonably
be expected between two formal coparties.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (quoting Wright

64a
Appendix D
& Miller § 4451); see also WesternGeco, 889 F.3d at 1320.
“Such relationships between a party and a nonparty are
most often found when ... an indemnitor participates
in defending an action brought against its indemnitee.”
Wright & Miller § 4451; Benson & Ford, Inc. v. Wanda
Petroleum Co., 833 F.2d 1172,1174 (5th Cir. 1987); cf. Intel
Corp. v. U.S. Int’l Trade Comm’n, 946 F.2d 821,839 (Fed.
Cir. 1991) (finding that “an indemnification agreement,
in other cases, has alone been enough to find privity”)
(citing Urbain v. Knapp Bros. Mfg. Co., 217 F.2d 810 (6th
Cir. 1954); Weyerhaeuser Timber Co. v. Bostitch, Inc., 178
F. Supp. 757, 760-61 (D.R.I. 1959)); SpeedTrack, Inc. v.
Office Depot, Inc., 2014 WL 1813292, at *6-7 (N.D. Cal.
May 6, 2014) (ruling that in view of the indemnification
obligations the manufacturer owed to its customer, the
manufacturer was in privity with the customer such that
claim preclusion could apply), affd, 791 F.3d 1317,1324-29
(Fed. Cir. 2015).
“Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty
had the same practical opportunity to control the course
of the proceedings that would be available to a party.”
Wright & Miller § 4451. “The appropriate measure of
control does not require that the named party or parties
totally abandon control to the nonparty.” Id. “A common
consideration is whether the non-party exercised or could
have exercised control over a party’s participation in a
proceeding.” Trial Practice Guide, 77 Fed. Reg. at 48,759
(citing Taylor, 553 U.S. at 895; Wright & Miller § 4451).
With these principles in mind and for the reasons

65a
Appendix D
stated below, we find that Petitioner is in privity with at
least one of the Delaware defendants as the evidence of
record shows that Petitioner had substantial control over
the Delaware actions.
B. Analysis on Privity
As an initial matter, the Board has considered, in
certain cases, the relationship between those alleged to
be in privity at the time of service of the complaint with
regard to the time bar under § 315(b). See, e.g., Nestle
USA, Inc. v. Steuben Foods, Inc., Case IPR2015-00195,
slip op. at 9-10 (Paper 51) (PTAB June 29,2015). As noted
above, the term “privity” is not defined in the statute, but
it “is a well-established common-law term.” WesternGeco,
889 F.3d at 1317. Our reviewing court has explained that
“the privity inquiry in this context naturally focuses on
the relationship between the named IPR petitioner and
the party in the prior lawsuit.” Id. at 1319 (emphases
added). This approach of focusing the privity inquiry on
the relationship during the prior lawsuit, rather than
at the time of service of the complaint (i.e., at the start
of the lawsuit) is consistent with Taylor. Aruze Gaming
Macau, LTD. v. MGT Gaming Inc., Case IPR2014-01288,
slip op. 12-14 (Paper 13) (PTAB Feb. 20, 2015). As the
Supreme Court explained in Taylor, regarding the fourth
category of nonparty preclusion, “a nonparty is bound by
a judgement if she assumed control over the litigation
in which that judgment was rendered.” Taylor, 553 U.S.
at 895 (internal quotation marks and citation omitted)
(emphasis added).

66a
Appendix D
As such, our privity inquiry in the instant processing
focuses on the relationship between Petitioner and the
Delaware defendants during the prior lawsuit. More
specifically, we focus on whether the relationship, as it
relates to the Delaware actions, “is sufficiently close that
it can be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” WesternGeco, 889 F.3d at 1319; Aruze Gaming,
Case IPR2014-01288, slip op. at 15.
We now turn to Parties’ contentions and supporting
evidence. In its Preliminary Response, Patent Owner
argues that Petitioner “had a right to substantially control
the Delaware litigation for years prior to the filing of the
present petition.” Prelim. Resp. 17. As support, Patent
Owner notes that Petitioner’s own public filings with the
Securities and Exchange Commission (“SEC”) establish
the existence of indemnification agreements with several
Delaware defendants. Id. According to Patent Owner,
Petitioner had a legal right to control
the litigation,

Upon consideration of the evidence before us, we agree
with Patent Owner that Petitioner had substantial control
over the Delaware actions.

67a
Appendix D
Petitioner counters that it is not a privy of the
Delaware defendants. Dis. Opp. 4-6.4 In support of its
contention, Petitioner argues that it “is not controlling
the Delaware litigation,” and it “has no legal right to do
so” because the complaints and infringement contentions
in the Delaware actions “identify multiple accused
products that are supplied to each of the Defendants
by many different suppliers, of which ARRIS is only
one.” Id. Petitioner also argues that Patent Owner
“points to no indemnification provision and provides no
argument that could support a conclusion that ARRIS
has a legal right to control a lawsuit that involves other
suppliers’ products.” Id. Petitioner avers that “ARRIS
could not take responsibility for the other products
accused of infringement, and it could not have assumed
(and did not assume) control over litigation strategy or
settlement.” Id. Petitioner further argues that “ARRIS’s
plainly shows that ARRIS does
not control the litigation.” Id. at 5-7. In Petitioner’s
view, “ARRIS’s agreement to
thus merely
establishes a typical customer-supplier relationship that
controlling authority has held insufficient to establish
privity.” Id. (citing Wi-Fi One v. Broadcom Corp., 887
F.3d 1329 (Fed. Cir. 2018); Nestle, Case IPR2015-00195,
slip op. at 6-17).
4. Petitioner did not present any privity argument in its
Petition. Pet. 6-8. Nor did Petitioner seek leave to file a reply
to Patent Owner’s Preliminary Response. Rather, Petitioner
presents its privity arguments in the Opposition to Patent Owner’s
Motion for Additional Discovery. Although improperly presented,
we nevertheless exercise our discretion to consider Petitioner’s
arguments, and address each of Petitioner’s privity arguments in
turn. See 37 C.F.R. § 42.5.

68a
Appendix D
We are not persuaded by Petitioner’s arguments
because they rest on an erroneous privity standard,
requiring actual and complete control of the entire
litigation. As discussed above, neither absolute control, nor
actual control, is required for finding of privity. Rather,
“it should be enough that the nonparty has the actual
measure of control or opportunity to control that might
reasonably be expected between two formal coparties.”
Trial Practice Guide, 77 Fed. Reg. at 48,759 (citing Wright
& Miller § 4451).
The Board as well as the courts “have found
privity where an entity’s control over the litigation was
substantial, even though not complete.” General Electric
Co. v. TransData, Inc., Case IPR2014-01380 (Paper 34,
9) (PTAB Apr. 15,2015) (citing Jefferson Sch. ofSoc. Sci.
v. Subversive Activities Control Bd., 331 F.2d 76,83 (D.C.
Cir. 1963)). “If a nonparty either participated vicariously in
the original litigation by exercising control over a named
party or had the opportunity to exert such control, then
the nonparty effectively enjoyed his day in court, and it is
appropriate to impute to him the legal attributes of party
status for purposes of claim preclusion.” Gonzalez, 27 F.3d
at 758. “[Preclusion is fair so long as the relationship
between the nonparty and a party was such that the
nonparty had the same practical opportunity to control
the course of the proceedings that would be available to
a party.” Id. (citing Wright & Miller § 4451).
Here, it is undisputed that Patent Owner served the
Delaware defendants with a complaint, more than one
year prior to the filing of the instant Petition, alleging
infringement of the ’679 patent. Ex. 2006. Petitioner

69a
Appendix D
confirms that it is the supplier for at least one of the
allegedly infringing products and has a “customersupplier relationship” with one or more of the Delaware
defendants. Dis. Opp. 5. Petitioner’s SEC Form 10-K dated
February 29,2016, indicates the following:
On September 21, 2015, [Patent Owner]
ChanBond filed suit against several MSOs
[Multiple Systems Operators] alleging
infringement of three US Patents. Certain
of our customers have requested that we
provide indemnification.... In the event of an
unfavorable outcome, ARRIS may be required
to indemnify the MSOs and/or pay damages for
utilizing certain technology.
Ex. 2002, 5, 31.
Further, it is undisputed that Petitioner has
indemnification agreements with one or more of the
Delaware defendants. See generally Dis. Opp.; Ex. 2002,
31; Exs. 2007—09. Notably, Petitioner’s Corporate Terms
and Conditions of Sale include the following:
22. INDEMNIFICATION. ARRIS will defend
and hold Customer . . . harmless against
damages finally awarded . . . and will, at
ARRIS’ expense, defend any third party claim,
suit, or proceeding (“Claim”) brought against
Customer insofar as such Claim is based on
an allegation that a Product as provided to
Customer directly infringes a valid patent or

70a
Appendix D
copyright. ARRIS will pay Damages as the
result of the Claim provided that (i) Customer
promptly notifies ARRIS of the Claim, (ii)
Customer gives ARRIS all applicable evidence
in Customer’s possession, custody or control,
and (iii) Customer gives ARRIS reasonable
assistance in and sole control of the defense
and all negotiations for its settlement or
compromise.
Ex. 2007, 2 (emphases added). Significantly, under the
indemnification agreement, Petitioner had an obligation
to defend a patent infringement claim brought against
the customer as to Petitioner’s product. Id. Petitioner also
was obligated to indemnify the customer any damages
as the result of the infringement claim. Id. Moreover, the
agreement required the customer to give Petitioner “sole
control of the defense” in order to receive any indemnity
payment.

71a
Appendix D

In short, Petitioner had the opportunity to exercise
“sole control” of those Delaware defendants’ defense.
The evidence in the instant proceeding establishes that
Petitioner had substantial control over the Delaware
actions. Gonzalez, 27 F.3d at 758 (“Substantial control
. . . connotes the availability of the significant degree
of effective control in the . . . defense of the case—what
one might term, in the vernacular, the power—whether
exercised or not—to call the shots”).
We also are not persuaded by Petitioner’s arguments
that it does not have a right to control the Delaware actions
that involve other suppliers’ products, and that Petitioner’s
plainly shows that ARRIS does
not control the litigation.” Disc. Opp. 5-7.

72a
Appendix D

In essence, Petitioner “has already had his day in
court” as it had the opportunity to present proofs and
arguments with respect to its own accused product
in the Delaware actions. See Taylor, 553 U.S. at 895
(“Because such a person has had the opportunity to
present proofs and argument, he has already had his
day in court even though he was not a formal party to
the litigation.”) (internal quotation marks and citations
omitted). Petitioner had the same practical opportunity
to control the course of the proceedings that would be
available to the named party. As such, Petitioner had the
actual measure of control or opportunity to control that
might reasonably be expected between formal coparties.

73a
Appendix D
Furthermore, Petitioner’s reliance on Wi-Fi One and
Nestle is misplaced. Disc. Opp. 5-7 (citing Wi-Fi One,
887 F.3d 1329; Nestle, Case IPR2015-00195, slip op. at
6-17). The determination of whether a petitioner is in
privity with a time-barred district court party is a “highly
fact-dependent question.” Trial Practice Guide, 77 Fed.
Reg. at 48,759. The particular facts in those cases are
distinguishable from the instant proceeding.
In Wi-Fi One, the court found that “the evidence
did not show that Broadcom had the right to control that
litigation or otherwise participated in that litigation to the
extent that it should be bound by the results” Wi-Fi One,
887 F.3d at 1341. In Nestle, the Board explicitly found that
there is no evidence to suggest that the IPR petitioner
financed the district court litigation or prior inter partes
reviews. Nestle, Case IPR2015-00195, slip op. at 12. In
fact, the Board noted that the “Agreement expressly
states that ‘[e]ach party will bear their own legal costs
... in handling the [Patent Owner] Claim (e.g., defending,
filing counterclaims or cross claims ..., etc.).’” Id.
Here, in contrast, Petitioner has a right to substantially
control the Delaware actions. Under the indemnification
agreement, Petitioner had the obligations to defend the
patent infringement claim brought against its customer
as to its accused product. Ex. 2007.

Therefore, unlike Wi-

74a
Appendix D
Fi One and Nestle, the evidence in the instant proceeding
establishes that Petitioner had substantial control over the
Delaware actions. Petitioner’s involvement was not merely
indemnity payments and minor participation. Rather,
Petitioner had the same practical opportunity to control
the course of the proceedings that would be available to
a named party.
In addition, we agree with Patent Owner that cases
where the Board rejected a privity argument based on
indemnification are distinguishable because in those cases,
unlike here, the Board found no sufficient evidence to
show that the petitioner exercised or could have exercised
control over a named party’s participation in the prior
litigation. Prelim. Resp. 32-33; see, e.g., Apple Inc. v.
Achates Reference Publ’g, Inc., Case IPR2013-00080,
slip op. at 12 (PTAB June 2,2014) (Paper 90) (noting that
the agreement “does not give the [indemnitor] the right
to intervene or control [the indemnitee’s] defense to any
charge of patent infringement”).
We also are mindful that, in a prior proceeding
involving the same petitioner,5 the Board rejected patent
owner’s privity argument because,
the Board
found that “Patent Owner does not provide evidence
sufficient to demonstrate that [the named party] provided
prompt notification to Petitioner, and that Petitioner
exercised sole control or full authority according to the
5. The petitioner (ARRIS Group, Inc.) in Case IPR201400746 was the predecessor in interest of Petitioner here (ARRIS
International pic). Ex. 2002,2 (ARRIS Form 10-K dated February
29,2016).

75a
Appendix D
Agreements.” ARRIS Group, Inc. v. C-Cation Techs.,
Case IPR2014-00746, slip op. at 8-10 (Paper 22) (PTAB
Nov. 24, 2014). The Board, in the prior proceeding, also
noted that “absent is evidence of Petitioner’s conduct in the
2011 district court proceeding from which we could infer
that Petitioner exercised control or could have exercised
control as provided for in the Agreements.” Id.
Here, to the contrary, the evidence in the instant
proceeding shows that Petitioner had substantial control
over the Delaware actions. Exs. 2007-23. As discussed
above, Petitioner had the obligation to defend the patent
infringement claim brought against its customer with
respect to its accused product. Id.

Petitioner had the same practical
opportunity to control the course of the proceedings that
would be available to a named party. Therefore, the facts
in the prior proceeding are distinguishable from the
instant proceeding.
In sum, based on the evidence in the entirety of this
record, we find that Petitioner had substantial control over
the Delaware actions. One or more of the defendants of
the Delaware actions was in privity with Petitioner, and
those defendants were served with a complaint, alleging
infringement of the ’679 patent more than one year prior to
the filing of the instant Petition. Therefore, we determine
that the instant Petition is time-barred under § 315(b).

76a
Appendix D
C. Motion for Additional Discovery
In its Motion for Additional Discovery, Patent
Owner indicates that the parties had conferred and
agreed to additional discovery between themselves.
Disc. Mot. 1; 37 C.F.R. § 42.51(b)(2)(i) (“The parties may
agree to additional discovery between themselves.”).
In particular, Petitioner agreed to ,produce “relevant
indemnification provisions from agreements with the
Delaware defendants, any indemnification claims made by
the defendants, and ARRIS’s responses to those claims.”
Ex. 2035; Ex. 2030,3-4. Petitioner produced the following
documents: several indemnification agreements; letters
from several of the Delaware defendants to Petitioner,
requesting indemnification
I; and
several response letters from Petitioner to one or more
of the Delaware defendants. Exs. 2009-23.
In its Motion for Additional Discovery, Patent Owner
alleges that Petitioner did not produce the indemnification
agreement and the response letter for each of the
customers that sent indemnification notices to Petitioner.
Disc. Mot. 1—2. Patent Owner requests discovery of
missing documents and interrogatories concerning
Petitioner’s involvement in the Delaware litigation. Id.] Ex.
2033. Patent Owner avers that the requested additional
discovery is necessary in the interests of justice, arguing
that it is beyond speculation that Petitioner was in privity
with the Delaware defendants. Disc. Mot. 2-3.
Under the circumstances of this case, we need not
assess the merits of Patent Owner’s Motion for Additional
Discovery. As discussed above, even without the additional

77a
Appendix D
requested documents and information, the evidence in the
current record establishes sufficiently that Petitioner was
in privity with one or more of the Delaware defendants,
and we determine that the instant Petition is time-barred
under § 315(b).
Accordingly, Patent Owner’s Motion for Additional
Discovery is dismissed as moot.
D. Motions to Seal
Patent Owner filed unredacted and redacted versions
of its Preliminary Response (Papers 14 and 15), and a
Motion to Seal the Preliminary Response (Paper 13).
Patent Owner also filed a First Motion to Seal (Paper 9)
and a Stipulated Default Protective Order agreed to by the
parties, which is a copy of the Board’s Default Protective
Order and attached to Patent Owner’s First Motion to
Seal. Trial Practice Guide, 77 Fed. Reg. 48,760 (Aug.
14, 2012), App’x B. Patent Owner requests the Board to
enter the Stipulated Default Protective Order. Because
the parties agree to the terms of the Board’s Default
Protective Order, we hereby enter the Stipulated Default
Protective Order, which governs the treatment and filing
of confidential information in the instant proceeding.
In its First Motion to Seal, Patent Owner seeks to
seal Exhibits 2008-23 and portions of its Preliminary
Response that discuss the substance of these exhibits.
Exhibits 2008-23 were produced by Petitioner pursuant
to the Stipulated Default Protective Order, and
designated “CONFIDENTIAL-PROTECTIVE ORDER
MATERIAL” by Petitioner. Exhibits 2008-23 relate to

78a
Appendix D
indemnification agreements between Petitioner and its
customers.
Patent Owner filed its Second Motion to Seal (Paper
10) along with unredacted and redacted versions of its
Motion for Additional Discovery (Papers 11 and 12). Patent
Owner seeks to seal Exhibits 2033 and 2038-42, as well
as portions of its Motion for Additional Discovery, which
discuss the substance of Exhibits 2008-23. Petitioner filed
a Motion to Seal (Paper 16) along with unredacted and
redacted versions of its Opposition (Papers 17 and 18) to
the Motion for Additional Discovery. Petitioner seeks to
seal portions of its Opposition that discuss the substance
of Exhibits 2008—23. Patent Owner filed its Third Motion
to Seal (Paper 19) along with unredacted and redacted
versions of its Reply (Papers 20 and 21) to Petitioner’s
Opposition to the Motion for Additional Discovery. Patent
Owner seeks to seal portions of its Reply that discuss the
substance of Exhibits 2008-23.
Neither party files an opposition to any of the Motions
to Seal filed in this proceeding.
The record for an inter partes review shall be made
available to the public, except as otherwise ordered,
and a document filed with a motion to seal shall be
treated as sealed until the motion is decided. 35 U.S.C.
§ 316(a)(1); 37 C.F.R. § 42.14. There is a strong public policy
that favors making information filed in inter partes review
proceedings open to the public. Garmin Int’l v. Cuozzo
Speed Techns., LLC, Case IPR2012-00001, slip op. at 1-2
(PTAB Mar. 14,2013) (Paper 34). The moving party bears
the burden of showing that the relief requested should

79a
Appendix D
be granted. 37 C.F.R. § 42.20(c). That includes showing
that the information is truly confidential, and that such
confidentiality outweighs the strong public interest in
having an open record. See Garmin, Case IPR2012-00001,
slip op. at 3. The standard for granting a motion to seal is
good cause. 37 C.F.R. § 42.54.
Having considered the documents at issue, we are
persuaded that good cause exists to keep the documents
under seal as they related to confidential business
information of Petitioner. In particular, Exhibits 2008-23,
and all other documents that discuss the substance of
these exhibits, relate to indemnification agreements
between Petitioner and its customers. The details of these
agreements are unimportant to the patentability of the
challenged claims. The public’s interest in having access
to the details of these agreements is minimal. Hence, we
agree with the parties that the documents should be kept
under seal.
We hereby grant the Motions to Seal with respect to
the following documents: Exhibits 2008-23, 2033, and
2038-42; and unredacted versions of Patent Owner’s
Preliminary Response (Paper 14), Patent Owner’s
Motion for Additional Discovery (Paper 11), Petitioner’s
Opposition (Paper 17), and Patent Owner’s Reply (Paper
20).

In addition, this Decision is filed under seal, designated
as “For Board and Parties Only” as it discusses and cites
to the documents under seal. The parties are ordered to
file jointly a proposed redacted version of this Decision
within 5 business days from the entry of this Decision.

80a
Appendix D
III. CONCLUSION
For the foregoing reasons, the Petition is time-barred
under § 315(b).
IV. ORDER
In consideration of the foregoing, it is
ORDERED that the Petition is denied, and no trial
is instituted
FURTHER ORDERED that Patent Owner’s Motion
for Additional Discovery is dismissed as moot.
FURTHER ORDERED that Patent Owner’s Motions
to Seal and Petitioner’s Motion to Seal are granted; the
following papers shall be seal as “Board and Parties Only”:
Exhibits 2008-23, 2033, and 2038-42; and unredacted
versions of Patent Owner’s Preliminary Response (Paper
14), Patent Owner’s Motion for Additional Discovery
(Paper 11), Petitioner’s Opposition (Paper 17), and Patent
Owner’s Reply (Paper 20);
FURTHER ORDERED that the Stipulated Default
Protective Order attached to Patent Owner’s First Motion
to Seal (Paper 9) be entered; and
FURTHER ORDERED that, within 5 business
days from the entry of this Decision, Patent Owner and
Petitioner jointly file a proposed redacted version of this
Decision.

81a
APPENDIX E — REDACTED DECISION OF THE
UNITED STATES PATENT AND TRADEMARK
OFFICE, CASE IPR2018-00574, DATED
JULY 20, 2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
ARRIS INTERNATIONAL PLC,
Petitioner,
v.
CHANBOND, LLC,
Patent Owner.

v.

Case IPR2018-00574
Patent 8,984,565 B2
Before JONI Y. CHANG, JEFFREY S. SMITH, and
DAVID C. McKONE, Administrative Patent Judges.
CHANG, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § SU

82a
Appendix E
I. INTRODUCTION
ARRIS International PLC (“Petitioner”) filed a
Petition requesting an inter partes review of claims
1 and 11 (“the challenged claims”) of U.S. Patent No.
8,984,565 B2 (Ex. 1001, “the ’565 patent”). Paper 1 (“Pet”).
ChanBond, LLC (“Patent Owner”) filed unredacted and
redacted versions1 of a Preliminary Response (Papers
9 and 10, “Prelim. Resp.”), along with a Motion to Seal
(Paper 8) and the Stipulated Default Protective Order
(attached to the Motion to Seal), which is a copy of the
default Protective Order set forth in Appendix B of
the Office Patent Trial Practice Guide (“Trial Practice
Guide”), 77 Fed. Reg. 48,756, 48,756-66 (Aug. 14, 2012).
Pursuant to our authorization, Patent Owner filed a
Motion for Additional Discovery (Papers 12 and 13, “Disc.
Mot.”); Petitioner filed an Opposition (Papers 15 and 16,
“Disc. Opp.”) to the Motion for Additional Discovery;
and Patent Owner filed a Reply (Papers 18 and 19, “Disc.
Reply”) to Petitioner’s Opposition.2
For the reasons stated below, we determine that a
privy of Petitioner was served with a complaint alleging
infringement of the ’565 patent more than one year before
the Petition was filed. Consequently, we deny the Petition
1. Citations hereinafter correspond to the unredacted
version (Paper 9).
2. Both parties filed unredacted and redacted versions of
their papers, along with corresponding Motions to Seal (Papers,
11,14, and 17). Our citations correspond to the unredacted version
of each paper.

83a
Appendix E
as it is time-barred under 35 U.S.C. § 315(b), and dismiss
Patent Owner’s Motion for Additional Discovery as moot.
We also grant the parties’ Motions to Seal (Papers 8,11,
14,17).
Related Matters
The parties indicate that the ’565 patent and two
other related patents, U.S. Patent Nos. 8,341,679 B2
(“’679 patent”) and 7,941,822 B2 (“’822 patent”), are
involved in the following proceedings in the United
States District Court for the District of Delaware
(the “Delaware actions”): ChanBond, LLC v. Atlantic
Broadband Group, LLC, l:15-cv-00842-RGA (D. Del.);
ChanBond, LLC v. Bright House Networks, LLC,
l:15-cv-00843-RGA (D. Del.); ChanBond, LLC v. Cable
One Inc., LLC, l:15-cv-00844-RGA (D. Del.); ChanBond,
LLC v. Cablevision Systems Corp., l:15-cv-00845-RGA
(D. Del.); ChanBond, LLC v. Cequel Communications,
LLC, l:15-cv-00846-RGA (D. Del.); ChanBond, LLC v.
Charter Communications, LLC, l:15-cv-00847-RGA (D.
Del.); ChanBond, LLC v. Comcast Corp., l:15-cv-00848RGA (D. Del.); ChanBond, LLC v. Cox Communications,
Inc., l:15-cv-00849-RGA (D. Del.); ChanBond, LLC v.
Mediacom Communications Corp., l:15-cv-00850-RGA
(D. Del.); ChanBond, LLC v. RCN Telecom Services,
LLC, l:15-cv-00851-RGA (D. Del.);. ChanBond, LLC v.
Time Warner Cable Inc., l:15-cv-00852-RGA (D. Del.);
ChanBond, LLCv. WaveDivision Holdings, LLC, l:15-cv00853-RGA (D. Del.); and ChanBond, LLC v. WideOpen

84a
Appendix E
West Finance, LLC, l:15-cv-00854-RGA (D. Del.).3 Pet.
3-5; Paper 5,1-2.
Petitioner also filed five additional petitions: IPR201800575 involving the ’565 patent; IPR2018-00572 and
IPR2018-00573 involving the ’679 patent; and IPR201800570 involving the ’822 patent. Pet. 5.
II. DISCUSSION
The instant Petition was filed on February 2, 2018.
Paper 3, 1. Patent Owner served the defendants in the
Delaware actions with a complaint, alleging infringement
of the ’565 patent on October 1, 2015, more than one
year prior to the filing of the instant Petition. Ex. 2006.
Petitioner was not a named party in the Delaware actions.
Id. Nonetheless, Patent Owner asserts that the instant
Petition is time-barred under 35 U.S.C. § 315(b) because
Petitioner is in privity with the Delaware defendants.
Prelim. Resp. 12-33. Accordingly, the main issue here
is whether at least one of the Delaware defendants is a
privy of Petitioner.
A. Principles of Law
Section 315(b) of Title 35 of the United States Code
provides:
(b) PATENT OWNER’S ACTION.—An inter
partes review may not be instituted if the
3. In this Decision, we refer the defendants of these Delaware
actions as “the Delaware defendants.”

85a
Appendix E
petition requesting the proceeding is filed
more than 1 year after the date on which the
petitioner, real party in interest, or privy of the
petitioner is served with a complaint alleging
infringement of the patent. The time limitation
set forth in the preceding sentence shall not
apply to a request for joinder under subsection
(c).
The legislative history indicates that § 315(b) was
intended to set a “deadline for allowing an accused
infringer to seek inter partes review after he has been
sued for infringement.” 157 CONG. REC. S5429 (daily ed.
Sept. 8,2011) (statement of Sen. Kyi). The deadline helps
to ensure that inter partes review is not used as a tool for
harassment by “repeated litigation and administrative
attacks.” H.R. RER NO. 112-98 at 48 (2011), as reprinted
in 2011 U.S.C.C.A.N. 67,78. Hence, “the rationale behind
§ 315(b)’s preclusion provision is to prevent successive
challenges to a patent by those who previously have
had the opportunity to make such challenges in prior
litigation.” WesternGeco LLC v. ION Geophysical Corp.,
889 F.3d 1308,1319 (Fed. Cir. 2018).
The term “privity” is not defined in the statute, but
it “is a well-established common-law term.” Id. at 1317.
“[W]hen Congress uses language with a settled meaning
at common law, Congress presumably knows and adopts
the cluster of ideas that were attached to each borrowed
word in the body of learning from which it was taken.”
Beck v. Prupis, 529 U.S. 494, 500—01 (2000); see also 154
CONG. REC. S9987 (daily ed. Sept. 27,2008) (statement of
Sen. Kyi) (“The concept of privity, of course, is borrowed
from the common law of judgments”).

86a
Appendix E
The concept of “privity” is more expansive and
encompasses parties that do not necessarily need to
be identified in the Petition as real parties-in-interest.
Trial Practice Guide, 77 Fed. Reg. at 48,759. The term
“privity” is used “more broadly, as a way to express the
conclusion that nonparty preclusion is appropriate on
any ground.” Taylor v. Sturgell, 553 U.S. 880, 894 n.8
(2008) (citing 18A Charles Alan Wright, Arthur R. Miller
& Edward H. Cooper, Federal Practice and Procedure
§ 4449, pp. 351-53, n.33 (2d ed. 2002) (hereinafter “Wright
& Miller”)); WesternGeco, 889 F.3d at 1318-19. The
legislative history endorsed the expression of “privy” as
follows:
The word “privy” has acquired an expanded
meaning. The courts, in the interest of justice
and to prevent expensive litigation, are striving
to give effect to judgments by extending
“privies” beyond the classical description. The
emphasis is not on the concept of identity
of parties, but on the practical situation.
Privity is essentially a shorthand statement
that collateral estoppel is to be applied in a
given case; there is no universally applicable
definition of privity. The concept refers to a
relationship between the party to be estopped
and the unsuccessful party in the prior
litigation which is sufficiently close so as to
justify application of the doctrine of collateral
estoppel.
154 CONG. REC. S9987 (daily ed. Sept. 27, 2008)
(statement of Sen. Kyi) (emphases added) (citing Cal.

87a
Appendix E
Physicians’ Serv. v. Aoki Diabetes Research Inst., 163
Cal. App. 4th 1506 (Cal. App. 2008)); 157 CONG. REC.
S1376 (daily ed. Mar. 8, 2011) (incorporating prior 2008
statement).
The determination of whether a petitioner is in privity
with a time-barred district court party is a “highly factdependent question.” Trial Practice Guide, 77 Fed. Reg.
at 48,759. More importantly, “the standards for the privity
inquiry must be grounded in due process.” WesternGeco,
889 F.3d. at 1319. “[T]he privity inquiry in this context
naturally focuses on the relationship between the named
IPR petitioner and the party in the prior lawsuit.
For example, it is important to determine whether the
petitioner and the prior litigant’s relationship—as it
relates to the lawsuit—is sufficiently close that it can
be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
. lawsuit.” Id. (emphases added).
In Taylor, the United States Supreme Court identified
a non-exhaustive list of six categories under which
nonparty preclusion based on a privity relationship may be
found: (1) an agreement between the parties to be bound;
(2) pre-existing substantive legal relationships between
the parties; (3) adequate representation by the named
party; (4) the nonparty’s control of the prior litigation;
(5) where the nonparty acts as a proxy for the named
party to re-litigate the same issues; and (6) where special
statutory schemes foreclose successive litigation by the
nonparty (e.g., bankruptcy or probate). Taylor, 553 U.S.
at 893-95,893 n.6. The Supreme Court noted that this list
of the six “established grounds for nonparty preclusion” is

88a
Appendix E
“meant only to provide a framework ..., not to establish
a definitive taxonomy.” Id. at 893 n.6. Each ground alone
is sufficient to establish privity between a nonparty and
a named party in the prior litigation. WesternGeco, 889
F.3d at 1319-20.
Here, in our analysis, we mainly address the fourth
Taylor category of nonparty preclusion. For the reasons
stated below, the evidence of record establishes sufficiently
that Petitioner is in privity with a time-barred district
court party because Petitioner had substantial control
over the Delaware actions. As such, it is not necessary
for us to determine whether privity exists based on other
grounds.
Under the fourth Taylor category of nonparty
preclusion, a nonparty to a prior action is bound by a
judgment if that party ‘“assume[d] control’ over the
litigation in which that judgment was rendered.” Taylor,
553 U.S. at 895 (citing Montana v. United States, 440
U.S. 147, 154 (1979)). “Courts and commentators agree,
however, that there is no ‘bright-line test’ for determining
the necessary quantity or degree of participation to
qualify as ... ‘privy’ based on the control concept.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (citing Gonzalez v.
Banco Cent. Corp., 27 F.3d 751, 759 (1st Cir. 1994)).
Neither absolute control, nor actual control, is a
requirement for finding of privity. Rather, “it should
be enough that the nonparty has the actual measure of
control or opportunity to control that might reasonably
be expected between two formal coparties.” Trial

89a
Appendix E
Practice Guide, 77 Fed. Reg. at 48,759 (quoting Wright
& Miller § 4451); see also WesternGeco, 889 F.3d at 1320.
“Such relationships between a party and a nonparty are
most often found when ... an indemnitor participates
in defending an action brought against its indemnitee.”
Wright & Miller § 4451; Benson & Ford, Inc. v. Wanda
Petroleum Co., 833 F.2d 1172,1174 (5th Cir. 1987); cf. Intel
Corp. v. U.S. Int’l Trade Comm’n, 946 F.2d 821,839 (Fed.
Cir. 1991) (finding that “an indemnification agreement,
in other cases, has alone been enough to find privity”)
(citing Urbain v. Knapp Bros. Mfig. Co., 217 F.2d 810 (6th
Cir. 1954); Weyerhaeuser Timber Co. v. Bostitch, Inc., 178
F. Supp. 757, 760-61 (D.R.I. 1959)); SpeedTrack, Inc. v.
Office Depot, Inc., 2014 WL 1813292, at *6—7 (N.D. Cal.
May 6, 2014) (ruling that in view of the indemnification
obligations the manufacturer owed to its customer, the
manufacturer was in privity with the customer such that
claim preclusion could apply), affd, 791 F.3d 1317,1324-29
(Fed. Cir. 2015).
“Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty
had the same practical opportunity to control the course
of the proceedings that would be available to a party.”
Wright & Miller § 4451. “The appropriate measure of
control does not require that the named party or parties
totally abandon control to the nonparty.” Id. “A common
consideration is whether the non-party exercised or could
have exercised control over a party’s participation in a
proceeding.” Trial Practice Guide, 77 Fed. Reg. at 48,759
(citing Taylor, 553 U.S. at 895; Wright & Miller § 4451).

90a
Appendix E
With these principles in mind and for the reasons
stated below, we find that Petitioner is in privity with at
least one of the Delaware defendants as the evidence of
record shows that Petitioner had substantial control over
the Delaware actions.
B. Analysis on Privity
As an initial matter, the Board has considered, in
certain cases, the relationship between those alleged to
be in privity at the time of service of the complaint with
regard to the time bar under § 315(b). See, e.g., Nestle
USA, Inc. v. Steuben Foods, Inc., Case IPR2015-00195,
slip op. at 9-10 (Paper 51) (PTAB June 29,2015). As noted
above, the term “privity” is not defined in the statute, but
it “is a well-established common-law term.” WesternGeco,
889 F.3d at 1317. Our reviewing court has explained that
“the privity inquiry in this context naturally focuses on
the relationship between the named IPR petitioner and
the party in the prior lawsuit.” Id. at 1319 (emphases
added). This approach of focusing the privity inquiry on
the relationship during the prior lawsuit, rather than
at the time of service of the complaint (i.e., at the start
of the lawsuit) is consistent with Taylor. Aruze Gaming
Macau, LTD. v. MGT Gaming Inc., Case IPR2014-01288,
slip op. 12-14 (Paper 13) (PTAB Feb. 20, 2015). As the
Supreme Court explained in Taylor, regarding the fourth
category of nonparty preclusion, “a nonparty is bound by
a judgement if she assumed control over the litigation
in which that judgment was rendered.” Taylor, 553 U.S.
at 895 (internal quotation marks and citation omitted)
(emphasis added).

91a
Appendix E
As such, our privity inquiry in the instant processing
focuses on the relationship between Petitioner and the
Delaware defendants during the prior lawsuit. More
specifically, we focus on whether the relationship, as it
relates to the Delaware actions, “is sufficiently close that
it can be fairly said that the petitioner had a full and fair
opportunity to litigate the validity of the patent in that
lawsuit.” WesternGeco, 889 F.3d at 1319; Aruze Gaming,
Case IPR2014-01288, slip op. at 15.
We now turn to Parties’ contentions and supporting
evidence. In its Preliminary Response, Patent Owner
argues that Petitioner “had a right to substantially control
the Delaware litigation for years prior to the filing of the
present petition.” Prelim. Resp. 17. As support, Patent
Owner notes that Petitioner’s own public filings with the
Securities and Exchange Commission (“SEC”) establish
the existence of indemnification agreements with several
Delaware defendants. Id. According to Patent Owner,
Petitioner had a legal right to control
the litigation,

Upon consideration of the evidence before us, we agree
with Patent Owner that Petitioner had substantial control
over the Delaware actions.

92a
Appendix E
Petitioner counters that it is not a privy of the Delaware
defendants. Dis. Opp. 4-6.4 In support of its contention,
Petitioner argues that it “is not controlling the Delaware
litigation,” and it “has no legal right to do so” because the
complaints and infringement contentions in the Delaware
actions “identify multiple accused products that are
supplied to each of the Defendants by many different
suppliers, of which ARRIS is only one.” Id. Petitioner also
argues that Patent Owner “points to no indemnification
provision and provides no argument that could support
a conclusion that ARRIS has a legal right to control
a lawsuit that involves other suppliers’ products.” Id.
Petitioner avers that “ARRIS could not take responsibility
for the other products accused of infringement, and it
could not have assumed (and did not assume) control over
litigation strategy or settlement.” Id. Petitioner further
plainly
argues that “ARRIS’s
shows that ARRIS does not control the litigation.” Id.
at 5-7. In Petitioner’s view, “ARRIS’s agreement to
thus merely establishes a typical customersupplier relationship that controlling authority has held
insufficient to establish privity.” Id. (citing Wi-Fi One v.
Broadcom Corp., 887 F.3d 1329 (Fed. Cir. 2018); Nestle,
Case IPR2015-00195, slip op. at 6-17).
4. Petitioner did not present any privity argument in its
Petition. Pet. 6-8. Nor did Petitioner seek leave to file a reply
to Patent Owner’s Preliminary Response. Rather, Petitioner
presents its privity arguments in the Opposition to Patent Owner’s
Motion for Additional Discovery. Although improperly presented,
we nevertheless exercise our discretion to consider Petitioner’s
arguments, and address each of Petitioner’s privity arguments in
turn. See 37 C.F.R. § 42.5.

93a
Appendix E
We are not persuaded by Petitioner’s arguments
because they rest on an erroneous privity standard,
requiring actual and complete control of, the entire
litigation. As discussed above, neither absolute control, nor
actual control, is required for finding of privity. Rather,
“it should be enough that the nonparty has the actual
measure of control or opportunity to control that might
reasonably be expected between two formal coparties.”
Trial Practice Guide, 77 Fed. Reg. at 48,759 (citing Wright
& Miller § 4451).
The Board as well as the courts “have found
privity where an entity’s control over the litigation was
substantial, even though not complete.” General Electric
Co. v. TransData, Inc., Case IPR2014-01380 (Paper 34,
9) (PTAB Apr. 15,2015) (citing Jefferson Sch. of Soc. Sci.
v. Subversive Activities Control Bd., 331 F.2d 76,83 (D.C.
Cir. 1963)). “If a nonparty either participated vicariously in
the original litigation by exercising control over a named
party or had the opportunity to exert such control, then
the nonparty effectively enjoyed his day in court, and it is
appropriate to impute to him the legal attributes of party
status for purposes of claim preclusion.” Gonzalez, 27 F.3d
at 758. “[Preclusion is fair so long as the relationship
between the nonparty and a party was such that the
nonparty had the same practical opportunity to control
the course of the proceedings that would be available to
a party.” Id. (citing Wright & Miller § 4451).
Here, it is undisputed that Patent Owner served the
Delaware defendants with a complaint, more than one
year prior to the filing of the instant Petition, alleging

94a
Appendix E
infringement of the ’565 patent. Ex. 2006. Petitioner
confirms that it is the supplier for at least one of the
allegedly infringing products and has a “customersupplier relationship” with one or more of the Delaware
defendants. Dis. Opp. 5. Petitioner’s SEC Form 10-K dated
February 29,2016, indicates the following:
On September 21, 2015, [Patent Owner]
ChanBond filed suit against several MSOs
[Multiple Systems Operators] alleging
infringement of three US Patents. Certain
of our customers have requested that we
provide indemnification .... In the event of an
unfavorable outcome, ARRIS may be required
to indemnify the MSOs and/or pay damages for
utilizing certain technology.
Ex. 2002, 5, 31.
Further, it is undisputed that Petitioner has
indemnification agreements with one or more of the
Delaware defendants. See generally Dis. Opp.; Ex. 2002,
31; Exs. 2007-09. Notably, Petitioner’s Corporate Terms
and Conditions of Sale include the following:
22. INDEMNIFICATION. ARRIS will defend
and hold Customer . . . harmless against
damages finally awarded . . . and will, at
ARRIS’ expense, defend any third party claim,
suit, or proceeding (“Claim”) brought against
Customer insofar as such Claim is based on
an allegation that a Product as provided to

95a
Appendix E
Customer directly infringes a valid patent or
copyright. ARRIS will pay Damages as the
result of the Claim provided that (i) Customer
promptly notifies ARRIS of the Claim, (ii)
Customer gives ARRIS all applicable evidence
in Customer’s possession, custody or control,
and (iii) Customer gives ARRIS reasonable
assistance in and sole control of the defense
and all negotiations for its settlement or
compromise.
Ex. 2007, 2 (emphases added). Significantly, under the
indemnification agreement, Petitioner had an obligation
to defend a patent infringement claim brought against
the customer as to Petitioner’s product. Id. Petitioner also
was obligated to indemnify the customer any damages
as the result of the infringement claim. Id. Moreover, the
agreement required the customer to give Petitioner “sole
control of the defense” in order to receive any indemnity
payment.

96a
Appendix E

In short, Petitioner had the opportunity to exercise
“sole control” of those Delaware defendants’ defense.
The evidence in the instant proceeding establishes that
Petitioner had substantial control over the Delaware
actions. Gonzalez, 27 F.3d at 758 (“Substantial control
. . . connotes the availability of the significant degree
of effective control in the . . . defense of the case—what
one might term, in the vernacular, the power—whether
exercised or not—to call the shots.”).
We also are not persuaded by Petitioner’s arguments
that it does not have a right to control the Delaware actions
that involve other suppliers’ products, and that Petitioner’s
plainly shows that ARRIS does not
control the litigation.” Disc. Opp. 5-7.

97a
Appendix E

In essence, Petitioner “has already had his day in
court” as it had the opportunity to present proofs and
arguments with respect to its own accused product
in the Delaware actions. See Taylor, 553 U.S. at 895
(“Because such a person has had the opportunity to
present proofs and argument, he has already had his
day in court even though he was not a formal party to
the litigation,”) (internal quotation marks and citations
omitted). Petitioner had the same practical opportunity
to control the course of the proceedings that would be
available to the named party. As such, Petitioner had the
actual measure of control or opportunity to control that
might reasonably be expected between formal coparties.

98a
Appendix E
Furthermore, Petitioner’s reliance on Wi-Fi One and
Nestle is misplaced. Disc. Opp. 5-7 (citing Wi-Fi One,
887 F.3d 1329; Nestle, Case IPR2015-00195, slip op. at
6—17). The determination of whether a petitioner is in
privity with a time-barred district court party is a “highly
fact-dependent question.” Trial Practice Guide, 77 Fed.
Reg. at 48,759. The particular facts in those cases are
distinguishable from the instant proceeding.
In Wi-Fi One, the court found that “the evidence
did not show that Broadcom had the right to control that
litigation or otherwise participated in that litigation to the
extent that it should be bound by the results.” Wi-Fi One,
887 F.3d at 1341. In Nestle, the Board explicitly found that
there is no evidence to suggest that the IPR petitioner
financed the district court litigation or prior inter partes
reviews. Nestle, Case IPR2015-00195, slip op. at 12. In
fact, the Board noted that the “Agreement expressly
states that ‘[e]ach party will bear their own legal costs
..'. in handling the [Patent Owner] Claim (e.g., defending,
filing counterclaims or cross claims ..., etc.).’” Id.
Here, in contrast, Petitioner has a right to substantially
control the Delaware actions. Under the indemnification
agreement, Petitioner had the obligations to defend the
patent infringement claim brought against its customer
as to its accused product. Ex. 2007.

Therefore, unlike

99a
Appendix E
Wi-Fi One and Nestle, the evidence in the instant proceeding
establishes that Petitioner had substantial control over the
Delaware actions. Petitioner’s involvement was not merely
indemnity payments and minor participation. Rather,
Petitioner had the same practical opportunity to control
the course of the proceedings that would be available to
a named party.
In addition, we agree with Patent Owner that cases
where the Board rejected a privity argument based on
indemnification are distinguishable because in those cases,
unlike here, the Board found no sufficient evidence to
show that the petitioner exercised or could have exercised
control over a named party’s participation in the prior
litigation. Prelim. Resp. 32-33; see, e.g., Apple Inc. v.
Achates Reference Publ’g, Inc., Case IPR2013-00080,
slip op. at 12 (PTAB June 2,2014) (Paper 90) (noting that
the agreement “does not give the [indemnitor] the right
to intervene or control [the indemnitee’s] defense to any
charge of patent infringement”).
We also are mindful that, in a prior proceeding
involving the same petitioner,5 the Board rejected patent
the Board
owner’s privity argument because,
found that “Patent Owner does not provide evidence
sufficient to demonstrate that [the named party] provided
prompt notification to Petitioner, and that Petitioner
exercised sole control or full authority according to the
5. The petitioner (ARRIS Group, Inc.) in Case IPR201400746 was the predecessor in interest of Petitioner here (ARRIS
International pic). Ex. 2002,2 (ARRIS Form 10-K dated February
29,2016).

100a
Appendix E
Agreements.” ARRIS Group, Inc. v. C-Cation Techs.,
Case IPR2014-00746, slip op. at 8-10 (Paper 22) (PTAB
Nov. 24, 2014). The Board, in the prior proceeding, also
noted that “absent is evidence of Petitioner’s conduct in the
2011 district court proceeding from which we could infer
that Petitioner exercised control or could have exercised
control as provided for in the Agreements.” Id.
Here, to the contrary, the evidence in the instant
proceeding shows that Petitioner had substantial control
over the Delaware actions. Exs. 2007-23. As discussed
above, Petitioner had the obligation to defend the patent
infringement claim brought against its customer with
respect to its accused product. Id.

Petitioner had the same practical
opportunity to control the course of the proceedings that
would be available to a named party. Therefore, the facts
in the prior proceeding are distinguishable from the
instant proceeding.
In sum, based on the evidence in the entirety of this
record, we find that Petitioner had substantial control over
the Delaware actions. One or more of the defendants of
the Delaware actions was in privity with Petitioner, and
those defendants were served with a complaint, alleging
infringement of the ’565 patent more than one year prior to
the filing of the instant Petition. Therefore, we determine
that the instant Petition is time-barred under § 315(b).

101a
Appendix E
C. Motion for Additional Discovery
In its Motion for Additional Discovery, Patent
Owner indicates that the parties had conferred and
agreed to additional discovery between themselves.
Disc. Mot. 1; 37 C.F.R. § 42.51(b)(2)(i) (“The parties may
agree to additional discovery between themselves.”).
In particular, Petitioner agreed to produce “relevant
indemnification provisions from agreements with the
Delaware defendants, any indemnification claims made by
the defendants, and ARRIS’s responses to those claims.”
Ex. 2035; Ex. 2030,3-4. Petitioner produced the following
documents: several indemnification agreements; letters
from several of the Delaware defendants to Petitioner,
requesting indemnification
I; and
several response letters from Petitioner to one or more of
the Delaware defendants. Exs. 2009-23.
In its Motion for Additional Discovery, Patent Owner
alleges that Petitioner did not produce the indemnification
agreement and the response letter for each of the
customers that sent indemnification notices to Petitioner.
Disc. Mot. 1-2. Patent Owner requests discovery of
missing documents and interrogatories concerning
Petitioner’s involvement in the Delaware litigation. Id.; Ex.
2033. Patent Owner avers that the requested additional
discovery is necessary in the interests of justice, arguing
that it is beyond speculation that Petitioner was in privity
with the Delaware defendants. Disc. Mot. 2-3.
Under the circumstances of this case, we need not
assess the merits of Patent Owner’s Motion for Additional

102a
Appendix E
Discovery. As discussed above, even without the additional
requested documents and information, the evidence in the
current record establishes sufficiently that Petitioner was
in privity with one or more of the Delaware defendants,
and we determine that the instant Petition is time-barred
under § 315(b).
Accordingly, Patent Owner’s Motion for Additional
Discovery is dismissed as moot.
D. Motions to Seal
Patent Owner filed unredacted and redacted versions
of its Preliminary Response (Papers 9 and 10), along with
its First Motion to Seal (Paper 8). Patent Owner also filed
a Stipulated Default Protective Order agreed to by the
parties, which is a copy of the Board’s Default Protective
Order and attached to Patent Owner’s First Motion to
Seal. Trial Practice Guide, 77 Fed. Reg. 48,760 (Aug.
14, 2012), App’x B. Patent Owner requests the Board to
enter the Stipulated Default Protective Order. Because
the parties agree to the terms of the Board’s Default
Protective Order, we hereby enter the Stipulated Default
Protective Order, which governs the treatment and filing
of confidential information in the instant proceeding.
In its First Motion to Seal, Patent Owner seeks to
seal Exhibits 2008-23 and portions of its Preliminary
Response that discuss the substance of these exhibits.
Exhibits 2008-23 were produced by Petitioner pursuant
to the Stipulated Default Protective Order, and
designated “CONFIDENTIAL-PROTECTIVE ORDER
MATERIAL” by Petitioner. Exhibits 2008-23 relate to

103a
Appendix E
indemnification agreements between Petitioner and its
customers.
Patent Owner filed its Second Motion to Seal (Paper
11) along with unredacted and redacted versions of its
Motion for Additional Discovery (Papers 12 and 13). Patent
Owner seeks to seal Exhibits 2033 and 2038-42, as well
as portions of its Motion for Additional Discovery, which
discuss the substance of Exhibits 2008-23. Petitioner filed
a Motion to Seal (Paper 14) along with unredacted and
redacted versions of its Opposition (Papers 15 and 16) to
the Motion for Additional Discovery. Petitioner seeks to
seal portions of its Opposition that discuss the substance
of Exhibits 2008-23. Patent Owner filed its Third Motion
to Seal (Paper 17) along with unredacted and redacted
versions of its Reply (Papers 18 and 19) to Petitioner’s
Opposition to the Motion for Additional Discovery. Patent
Owner seeks to seal portions of its Reply that discuss the
substance of Exhibits 2008-23.
Neither party files an opposition to any of the Motions
to Seal filed in this proceeding.
The record for an inter partes review shall be made
available to the public, except as otherwise ordered, and
a document filed with a motion to seal shall be treated
as sealed until the motion is decided. 35 U.S.C. § 316(a)
(1); 37 C.F.R. § 42.14. There is a strong public policy that
favors making information filed in inter partes review
proceedings open to the public. Garmin Int’l v. Cuozzo
Speed Techns., LLC, Case IPR2012-00001, slip op. at 1-2
(PTAB Mar. 14,2013) (Paper 34). The moving party bears
the burden of showing that the relief requested should

104a
Appendix E
be granted. 37 C.F.R. § 42.20(c). That includes showing
that the information is truly confidential, and that such
confidentiality outweighs the strong public interest in
having an open record. -See Garmin, Case IPR2012-00001,
slip op. at 3. The standard for granting a motion to seal is
good cause. 37 C.F.R. § 42.54.
Having considered the documents at issue, we are
persuaded that good cause exists to keep the documents
under seal as they related to confidential business
information of Petitioner. In particular, Exhibits 2008-23,
and all other documents that discuss the substance of
these exhibits, relate to indemnification agreements
between Petitioner and its customers. The details of these
agreements are unimportant to the patentability of the
challenged claims. The public’s interest in having access
to the details of these agreements is minimal. Hence, we
agree with the parties that the documents should be kept
under seal.
We hereby grant the Motions to Seal with respect to
the following documents: Exhibits 2008-23, 2033, and
2038-42; and unredacted versions of Patent Owner’s
Preliminary Response (Paper 9), Patent Owner’s
Motion for Additional Discovery (Paper 12), Petitioner’s
Opposition (Paper 15), and Patent Owner’s Reply (Paper
18).
In addition, this Decision is filed under seal, designated
as “For Board and Parties Only” as it discusses and cites
to the documents under seal. The parties are ordered to
file jointly a proposed redacted version of this Decision
within 5 business days from the entry of this Decision.

105a
Appendix E
III. CONCLUSION
For the foregoing reasons, the Petition is time-barred
under § 315(b).
IV. ORDER
In consideration of the foregoing, it is
ORDERED that the Petition is denied, and no trial
is instituted
FURTHER ORDERED that Patent Owner’s Motion
for Additional Discovery is dismissed as moot.
FURTHER ORDERED that Patent Owner’s Motions
to Seal and Petitioner’s Motion to Seal are granted; the
following papers shall be seal as “Board and Parties Only”:
Exhibits 2008-23, 2033, and 2038-42; and unredacted
versions of Patent Owner’s Preliminary Response (Paper
9), Patent Owner’s Motion for Additional Discovery (Paper
12), Petitioner’s Opposition (Paper 15), and Patent Owner’s
Reply (Paper 18);
FURTHER ORDERED that the Stipulated Default
Protective Order attached to Patent Owner’s First Motion
to Seal (Paper 8) be entered; and
FURTHER ORDERED that, within 5 business
days from the entry of this Decision, Patent Owner and
Petitioner jointly file a proposed redacted version of this
Decision.

106a
APPENDIX F — REDACTED DECISION OF THE
UNITED STATES PATENT AND TRADEMARK
OFFICE, CASE IPR2018-00575, DATED
JULY 20,2018
UNITED STATES PATENT
AND TRADEMARK OFFICE
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
ARRIS INTERNATIONAL PLC,
Petitioner,
v.
CHANBOND, LLC,
Patent Owner.
Case IPR2018-00575
Patent 8,984,565 B2
Before JONIY. CHANG, JEFFREY S. SMITH, and
DAVID C. McKONE, Administrative Patent Judges.
CHANG, Administrative Patent Judge.
DECISION
Denying Institution of Inter Partes Review
35 U.S.C. § 31k

/

107a
Appendix F
I. INTRODUCTION
ARRIS International PLC (“Petitioner”) filed a
Petition requesting an inter partes review of claims 12,
18, 20, 23, 37, 38, 40, and 41 (“the challenged claims”) of
U.S. Patent No. 8,984,565 B2 (Ex. 1001, “the ’565 patent”).
Paper 1 (“Pet.”). ChanBond, LLC (“Patent Owner”) filed
unredacted and redacted versions1 of a Preliminary
Response (Papers 9 and 10, “Prelim. Resp”), along with
a Motion to Seal (Paper 8) and the Stipulated Default
Protective Order (attached to the Motion to Seal), which is
a copy of the default Protective Order set forth in Appendix
B of the Office Patent Trial Practice Guide (“Trial Practice
Guide”), 77 Fed. Reg. 48,756, 48,756-66 (Aug. 14, 2012).
Pursuant to our authorization, Patent Owner filed a Motion
for Additional Discovery (Papers 12 and 13, “Disc. Mot.”);
Petitioner filed an Opposition (Papers 14 and 15, “Disc.
Opp.”) to the Motion for Additional Discovery; and Patent
Owner filed a Reply (Papers 18 and 19, “Disc. Reply”) to
Petitioner’s Opposition.2
For the reasons stated below, we determine that a
privy of Petitioner was served with a complaint alleging
infringement of the ’565 patent more than one year before
the Petition was filed. Consequently, we deny the Petition
as it is time-barred under 35 U.S.C. § 315(b), and dismiss
1. Citations hereinafter correspond to the unredacted version
(Paper 9).
2. Both parties filed unredacted and redacted versions of
their papers, along with corresponding Motions to Seal (Papers,
11,16, and 17). Our citations correspond to the unredacted version
of each paper.

108a
Appendix F
Patent Owner’s Motion for Additional Discovery as moot.
We also grant the parties’ Motions to Seal (Papers 8,11,
16,17).
Related Matters
The parties indicate that the ’565 patent and two
other related patents, U.S. Patent Nos. 8,341,679 B2 (“’679
patent”) and 7,941,822 B2 (“’822 patent”), are involved in
the following proceedings in the United States District
Court for the District of Delaware (the “Delaware actions”):
ChanBond, LLC v. Atlantic Broadband Group, LLC,
l:15-cv-00842-RGA (D. Del.); ChanBond, LLC v. Bright
House Networks, LLC, l:15-cv-00843-RGA (D. Del.);
ChanBond, LLC v. Cable One Inc., LLC, l:15-cv-00844RGA (D. Del.); ChanBond, LLC v. Cablevision Systems
Corp., l:15-cv-00845-RGA (D. Del.); ChanBond, LLC v.
Cequel Communications, LLC, l:15-cv-00846-RGA (D.
Del.); ChanBond, LLC v. Charter Communications, LLC,
l:15-cv-00847-RGA(D. Del.); ChanBond, LLC v. Comcast
Corp., l:15-cv-00848-RGA (D. Del.); ChanBond, LLC v.
Cox Communications, Inc., l:15-cv-00849-RGA(D. Del.);
ChanBond, LLC v. Mediacom Communications Corp.,
l:15-cv-00850-RGA (D. Del.); ChanBond, LLC v. RCN
Telecom Services, LLC, l:15-cv-00851-RGA (D. Del.);
ChanBond, LLCv. Time Warner Cable Inc., l:15-cv-00852RGA (D. Del.); ChanBond, LLCv. WaveDivisionHoldings,
LLC, l:15-cv-00853-RGA (D. Del.); and ChanBond, LLC
v. WideOpen West Finance, LLC, l:15-cv-00854-RGA(D.
Del.).3 Pet. 4-5; Paper 5,1-2.
3. In this Decision, we refer the defendants of these Delaware
actions as “the Delaware defendants.”

109a
Appendix F
Petitioner also filed five additional petitions: IPR201800574 involving the ’565 patent; IPR2018-00572 and
IPR2018-00573 involving the ’679 patent; and IPR201800570 involving the ’822 patent. Pet. 5.
II. DISCUSSION
The instant Petition was filed on February 2, 2018.
Paper 3, 1. Patent Owner served the defendants in the
Delaware actions with a complaint, alleging infringement
of the ’565 patent on October 1, 2015, more than one
year prior to the filing of the instant Petition. Ex. 2006.
Petitioner was not a named party in the Delaware actions.
Id. Nonetheless, Patent Owner asserts that the instant
Petition is time-barred under 35 U.S.C. § 315(b) because
Petitioner is in privity with the Delaware defendants.
Prelim. Resp. 12—33. Accordingly, the main issue here is
whether at least one of the Delaware defendants is a privy
of Petitioner.
A. Principles of Law
Section 315(b) of Title 35 of the United States Code
provides:
(b) PATENT OWNER’S ACTION.—An
inter partes review may not be instituted if
the petition requesting the proceeding is filed
more than 1 year after the date on which the
petitioner, real party in interest, or privy
of the petitioner is served with a complaint
alleging infringement of the patent. The time

110a
Appendix F
limitation set forth in the preceding sentence
shall not apply to a request for joinder under
subsection (c).
The legislative history indicates that § 315(b) was
intended to set a “deadline for allowing an accused
infringer to seek inter partes review after he has been
sued for infringement.” 157 Cong. Rec. S5429 (daily ed.
Sept. 8,2011) (statement of Sen. Kyi). The deadline helps
to ensure that inter partes review is not used as a tool for
harassment by “repeated litigation and administrative
attacks.” H.R. Rep. No. 112-98 at 48 (2011), as reprinted
in 2011 U.S.C.C.A.N. 67,78. Hence, “the rationale behind
§ 315(b)’s preclusion provision is to prevent successive
challenges to a patent by those who previously have had
the opportunity to make such challenges in prior litigation.”
WesternGeco LLC v. ION Geophysical Corp., 889 F.3d,
1308,1319 (Fed. Cir. 2018).
The term “privity” is not defined in the statute, but
it “is a well-established common-law term.” Id. at 1317.
“[W]hen Congress uses language with a settled meaning at
common law, Congress presumably knows and adopts the
cluster of ideas that were attached to each borrowed word
in the body of learning from which it was taken.” Beck v.
Prupis, 529 U.S. 494, 500-01 (2000); see also 154 Cong.
Rec. S9987 (daily ed. Sept. 27,2008) (statement of Sen. Kyi)
(“The concept of privity, of course, is borrowed from the
common law of judgments.”).
The concept of “privity” is more expansive and
encompasses parties that do not necessarily need to be
identified in the Petition as real parties-in-interest. Trial

111a
Appendix F
Practice Guide, 77 Fed. Reg. at 48,759. The term “privity”
is used “more broadly, as a way to express the conclusion
that nonparty preclusion is appropriate on any ground.”
Taylor v. Sturgell, 553 U.S. 880, 894 n.8 (2008) (citing
18A Charles Alan Wright, Arthur R. Miller & Edward
H. Cooper, Federal Practice and Procedure § 4449, pp.
351-53, n.33 (2d ed. 2002) (hereinafter “Wright & Miller”));
WesternGeco, 889 F.3d at 1318-19. The legislative history
endorsed the expression of “privy” as follows:
The word “privy” has acquired an expanded
meaning. The courts, in the interest of justice
and to prevent expensive litigation, are striving
to give effect to judgments by extending
“privies” beyond the classical description. The
emphasis is not on the concept of identity
of parties, but on the practical situation.
Privity is essentially a shorthand statement
that collateral estoppel is to be applied in a
given case; there is no universally applicable
definition of privity. The concept refers to a
relationship between the party to be estopped
and the unsuccessful party in the prior
litigation which is sufficiently close so as to
justify application of the doctrine of collateral
estoppel.
154 Cong. Rec. S9987 (daily ed. Sept. 27,2008) (statement
of Sen. Kyi) (emphasis added) (citing Cal. Physicians’Serv.
v. Aoki Diabetes Research Inst., 163 Cal.App.4th 1506 (Cal.
App. 2008)); 157 Cong. Rec. S1376 (daily ed. Mar. 8, 2011)
(incorporating prior 2008 statement).

112a
Appendix F
The determination of whether a petitioner is in privity
with a time-barred district court party is a “highly factdependent question.” Trial Practice Guide, 77 Fed. Reg. at
48,759. More importantly, “the standards for the privity
inquiry must be grounded in due process.” WesternGeco,
889 F.3d. at 1319. “[T]he privity inquiry in this context
naturally focuses on the relationship between the named
IPR petitioner and the party in the prior lawsuit. For
example, it is important to determine whether the petitioner
and the prior litigant’s relationship—as it relates to the
lawsuit—is sufficiently close that it can be fairly said that
the petitioner had a full and fair opportunity to litigate the
validity of the patent in that lawsuit.” Id. (emphases added).
In Taylor, the United States Supreme Court identified a
non-exhaustivelist of six categories under which nonparty
preclusion based on a privity relationship may be found:
(1) an agreement between the parties to be bound; (2)
pre-existing substantive legal relationships between the
parties; (3) adequate representation by the named party;
(4) the nonparty’s control of the prior litigation; (5) where
the nonparty acts as a proxy for the named party to re­
litigate the same issues; and (6) where special statutory
schemes foreclose successive litigation by the nonparty
(e.g., bankruptcy or probate). Taylor, 553 U.S. at 893-95,
893 n.6. The Supreme Court noted that this list of the six
“established grounds for nonparty preclusion” is “meant
only to provide a framework . ... , not to establish a
definitive taxonomy.” Id. at 893 n.6. Each ground alone
is sufficient to establish privity between a nonparty and a
named party in the prior litigation. WesternGeco, 889 F.3d
at 1319-20.

113a
Appendix F
Here, in our analysis, we mainly address the fourth
Taylor category of nonparty preclusion. For the reasons
stated below, the evidence of record establishes sufficiently
that Petitioner is in privity with a time-barred district court
party because Petitioner had substantial control over the
Delaware actions. As such, it is not necessary for us to
determine whether privity exists based on other grounds.
Under the fourth Taylor category of nonparty
preclusion, a nonparty to a prior action is bound by a
judgment if that party “‘assume[d] control’ over the
litigation in which that judgment was rendered.” Taylor,
553 U.S. at 895 (citing Montana v. United States, 440
U.S. 147, 154 (1979)). “Courts and commentators agree,
however, that there is no ‘bright-line test’ for determining
the necessary quantity or degree of participation to qualify
as.... ‘privy’ based on the control concept.” Trial Practice
Guide, 77 Fed. Reg. at 48,759 (citing Gonzalez v. Banco
Cent. Corp., 27 F.3d 751, 759 (1st Cir. 1994)).
Neither absolute control, nor actual control, is a
requirement for finding of privity. Rather, “it should be
enough that the nonparty has the actual measure of control
or opportunity to control that might reasonably be expected
between two formal coparties.” Trial Practice Guide, 77
Fed. Reg. at 48,759 (quoting Wright & Miller § 4451); see
also WesternGeco, 889 F.3d at 1320. “Such relationships
between a party and a nonparty are most often found
when__ an indemnitor participates in defending an action
brought against its indemnitee.” Wright & Miller § 4451;
Benson & Ford, Inc. v. Wanda Petroleum Co., 833 F.2d
1172,1174 (5th Cir. 1987); cf. Intel Corp. v. U.S. Int’l Trade

114a
Appendix F
Comm’n, 946 F.2d 821,839 (Fed. Cir. 1991) (finding that “an
indemnification agreement, in other cases, has alone been
enough to find privity”) (citing Urbainv. Knapp Bros. Mfg.
Co., 217 F.2d 810 (6th Cir. 1954); Weyerhaeuser Timber Co.
v. Bostitch, Inc., 178 F. Supp. 757, 760-61 (D.R.1.1959));
SpeedTrack, Inc. v. Office Depot, Inc., 2014 WL 1813292,
at *6-7 (N.D. Cal. May 6, 2014) (ruling that in view of
the indemnification obligations the manufacturer owed
to its customer, the manufacturer was in privity with the
customer such that claim preclusion could apply), affd, 791
F.3d 1317,1324-29 (Fed. Cir. 2015).
“Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty had
the same practical opportunity to control the course of the
proceedings that would be available to a party.” Wright &
Miller § 4451. “The appropriate measure of control does
not require that the named party or parties totally abandon
control to the nonparty ” Id. “A common consideration is
whether the non-party exercised or could have exercised
control over a party’s participation in a proceeding.” Trial
Practice Guide, 77 Fed. Reg. at 48,759 (citing Taylor, 553
U.S. at 895; Wright & Miller § 4451).
With these principles in mind and for the reasons stated
below, we find that Petitioner is in privity with at least one
of the Delaware defendants as the evidence of record shows
that Petitioner had substantial control over the Delaware
actions.

115a
Appendix F
B. Analysis on Privity
As an initial matter, the Board has considered, in
certain cases, the relationship between those alleged to
be in privity at the time of service of the complaint with
regard to the time bar under § 315(b). See, e.g., Nestle
USA, Inc. v. Steuben Foods, Inc., Case IPR2015-00195,
slip op. at 9-10 (Paper 51) (PTAB June 29,2015). As noted
above, the term “privity” is not defined in the statute, but
it “is a well-established common-law term.” WesternGeco,
889 F.3d at 1317. Our reviewing court has explained that
“the privity inquiry in this context naturally focuses on
the relationship between the named IPR petitioner and
the party in the prior lawsuit.” Id. at 1319(emphases
added). This approach of focusing the privity inquiry on
the relationship during the prior lawsuit, rather than at
the time of service of the complaint (i.e., at the start of the
lawsuit) is consistent with Taylor. Aruze Gaming Macau,
LTD. v. MGT Gaming Inc., Case IPR2014-01288, slip op.
12-14 (Paper 13) (PTAB Feb. 20,2015). As the Supreme
Court explained in Taylor, regarding the fourth category of
nonparty preclusion, “a nonparty is bound by a judgement
if she assumed control over the litigation in which that
judgment was rendered.” Taylor, 553 U.S. at 895 (internal
quotation marks and citation omitted) (emphasis added).
As such, our privity inquiry in the instant processing
focuses on the relationship between Petitioner and the
Delaware defendants during the prior lawsuit. More
specifically, we focus on whether the relationship, as it
relates to the Delaware actions, “is sufficiently close that
it can be fairly said that the petitioner had a full and fair

116a
Appendix F
opportunity to litigate the validity of the patent in that
lawsuit.” WesternGeco, 889 F.3d at 1319; Aruze Gaming,
Case IPR2014-01288, slip op. at 15.
We now turn to Parties’ contentions and supporting
evidence. In its Preliminary Response, Patent Owner
argues that Petitioner “had a right to substantially
control the Delaware litigation for years prior to the filing
of the present petition.” Prelim. Resp. 17. As support,
Patent Owner notes that Petitioner’s own public filings
with the Securities and Exchange Commission (“SEC”)
establish the existence of indemnification agreements
with several Delaware defendants. Id. According
to Patent Owner,
Petitioner had
a legal right to control the litigation,

Upon consideration of the evidence
before us, we agree with Patent Owner that Petitioner had
substantial control over the Delaware actions.
Petitioner counters that it is not a privy of the Delaware
defendants. Dis. Opp. 4-6.4 In support of its contention,
4. Petitioner did not present any privity argument in its
Petition. Pet. 6-8. Nor did Petitioner seek leave to file a reply
to Patent Owner’s Preliminary Response. Rather, Petitioner
presents its privity arguments in the Opposition to Patent Owner’s

117a
Appendix F
Petitioner argues that it “is not controlling the Delaware
litigation,” and it “has no legal right to do so” because the
complaints and infringement contentions in the Delaware
actions “identify multiple accused products that are
supplied to each of the Defendants by many different
suppliers, of which ARRIS is only one.” Id. Petitioner also
argues that Patent Owner “points to no indemnification
provision and provides no argument that could support a
conclusion that ARRIS has a legal right to control a lawsuit
that involves other suppliers’ products.” Id. Petitioner
avers that “ARRIS could not take responsibility for the
other products accused of infringement, and it could not
have assumed (and did not assume) control over litigation
strategy or settlement.” Id. Petitioner further argues that
“ARRIS’S
plainly shows that ARRIS
does not control the litigation.” Id. at 5—7. In Petitioner’s
view, “ARRIS’s agreement to
thus merely
establishes a typical customer-supplier relationship that
controlling authority has held insufficient to establish
privity.” Id. (citing Wi-Fi One v. Broadcom Corp., 887
F.3d 1329 (Fed. Cir. 2018); Nestle, Case IPR2015-00195,
slip op. at 6-17).
We are not persuaded by Petitioner’s arguments
because they rest on an erroneous privity standard,
requiring actual and complete control of the entire
litigation. As discussed above, neither absolute control, nor
actual control, is required for finding of privity. Rather,
Motion for Additional Discovery. Although improperly presented,
we nevertheless exercise our discretion to consider Petitioner’s
arguments, and address each of Petitioner’s privity arguments in
turn. See 37 C.F.R. § 42.5.

118a
Appendix F
“it should be enough that the nonparty has the actual
measure of control or opportunity to control that might
reasonably be expected between two formal coparties.”
Trial Practice Guide, 77 Fed. Reg. at 48,759 (citing Wright
& Miller § 4451).
The Board as well as the courts “have found privity
where an entity’s control over the litigation was substantial,
even though not complete.” General Electric Co. v.
TransData, Inc., Case IPR2014-01380 (Paper 34,9) (PTAB
Apr. 15,2015) (citing JeffersonSch. ofSoc. Sci. v. Subversive
Activities ControlBd., 331 F.2d 76,83 (D.C. Cir. 1963)). “If
a nonparty either participated vicariously in the original
litigation by exercising control over a named party or had
the opportunity to exert such control, then the nonparty
effectively enjoyed his day in court, and it is appropriate
to impute to him the legal attributes of party status for
purposes of claim preclusion.” Gonzalez, 27 F.3d at 758.
“[Preclusion is fair so long as the relationship between
the nonparty and a party was such that the nonparty had
the same practical opportunity to control the course of the
proceedings that would be available to a party.” Id. (citing
Wright & Miller § 4451).
Here, it is undisputed that Patent Owner served the
Delaware defendants with a complaint, more than one
year prior to the filing of the instant Petition, alleging
infringement of the ’565 patent. Ex. 2006. Petitioner
confirms that it is the supplier for at least one of the
allegedly infringing products and has a “customer-supplier
relationship” with one or more of the Delaware defendants.
Dis. Opp. 5. Petitioner’s SEC Form 10-K dated February
29,2016, indicates the following:

119a
Appendix F
On September 21, 2015, [Patent Owner]
ChanBond filed suit against several MSOs
[Multiple Systems Operators] alleging
infringement of three US Patents. Certain
of our customers have requested that we
provide indemnification.... In the event of an
unfavorable outcome, ARRIS may be required
to indemnify the MSOs and/or pay damages for
utilizing certain technology.
Ex. 2002,5,31.
Further, it is undisputed that Petitioner has
indemnification agreements with one or more of the
Delaware defendants. See generally Dis. Opp.; Ex. 2002,
31; Exs. 2007-09. Notably, Petitioner’s Corporate Terms
and Conditions of Sale include the following:
22. INDEMNIFICATION. ARRIS will defend
and hold Customer... harmless against damages
finally awarded... and will, at ARRIS’ expense,
defend any third party claim, suit, or proceeding
(“Claim”) brought against Customer insofar
as such Claim is based on an allegation that
a Product as provided to Customer directly
infringes a valid patent or copyright. ARRIS
will pay Damages as the result of the Claim
provided that (i) Customer promptly notifies
ARRIS of the Claim, (ii) Customer gives ARRIS
all applicable evidence in Customer’s possession,
custody or control, and (iii) Customer gives
ARRIS reasonable assistance in and sole

120a
Appendix F
control of the defense and all negotiations for its
settlement or compromise.
Ex. 2007, 2 (emphases added). Significantly, under the
indemnification agreement, Petitioner had an obligation
to defend a patent infringement claim brought against the
customer as to Petitioner’s product. Id. Petitioner also
was obligated to indemnify the customer any damages as
the result of the infringement claim. Id. Moreover, the
agreement required the customer to give Petitioner “sole
control of the defense” in order to receive any indemnity
payment.

121a
Appendix F
In short, Petitioner had the opportunity to exercise
“sole control” of those Delaware defendants’ defense.
The evidence in the instant proceeding establishes that
Petitioner had substantial control over the Delaware
actions. Gonzalez, 27 F.3d at 758 (“Substantial control...
connotes the availability of the significant degree of
effective control in the . . . defense of the case—what
one might term, in the vernacular, the power—whether
exercised or not—to call the shots.”).
We also are not persuaded by Petitioner’s arguments
that it does not have a right to control the Delaware actions
that involve other suppliers’ products, and that Petitioner’s
plainly shows that ARRIS does not
control the litigation.” Disc. Opp. 5-7.

122a
Appendix F

In essence, Petitioner “has already had [its] day in
court” as it had the opportunity to present proofs and
arguments with respect to its own accused product in the
Delaware actions. See Taylor, 553 U.S. at 895 (“Because
such a person has had the opportunity to present proofs and
argument, he has already had his day in court even though
he was not a formal party to the litigation.”) (internal
quotation marks and citations omitted). Petitioner had
the same practical opportunity to control the course of the
proceedings that would be available to the named party.
As such, Petitioner had the actual measure of control or
opportunity to control that might reasonably be expected
between formal coparties.
Furthermore, Petitioner’s reliance on Wi-Fi One and
Nestle is misplaced. Disc. Opp. 5-7 (citing Wi-Fi One,
887 F.3d 1329; Nestle, Case IPR2015-00195, slip op. at
6-17). The determination of whether a petitioner is in
privity with a time-barred district court party is a “highly
fact-dependent question.” Trial Practice Guide, 77 Fed.

123a
Appendix F
Reg. at 48,759. The particular facts in those cases are
distinguishable from the instant proceeding.
In Wi-Fi One, the court found that “the evidence did not
show that Broadcom had the right to control that litigation
or otherwise participated in that litigation to the extent that
it should be bound by the results.” Wi-Fi One, 887 F.3d
at 1341. In Nestle, the Board explicitly found that there
is no evidence to suggest that the IPR petitioner financed
the district court litigation or prior inter partes reviews.
Nestle, Case IPR2015-00195, slip op. at 12. In fact, the
Board noted that the “Agreement expressly states that
‘[e]ach party will bear their own legal costs ... in
handling the [Patent Owner] Claim (e.g., defending, filing
counterclaims or cross claims ..., etc.).’” Id.
Here, in contrast, Petitioner has a right to substantially
control the Delaware actions. Under the indemnification
agreement, Petitioner had the obligations to defend the
patent infringement claim brought against its customer as
to its accused product. Ex. 2007.

Therefore, unlike
Wi-Fi One and Nestle, the evidence in the instant proceeding
establishes that Petitioner had substantial control over the
Delaware actions. Petitioner’s involvement was not merely
indemnity payments and minor participation. Rather,
Petitioner had the same practical opportunity to control
the course of the proceedings that would be available to a
named party.

124a
Appendix F
In addition, we agree with Patent Owner that cases
where the Board rejected a privity argument based on
indemnification are distinguishable because in those cases,
unlike here, the Board found no sufficient evidence to show
that the petitioner exercised or could have exercised control
over a named party’s participation in the prior litigation.
Prelim. Resp. 32-33; see, e.g., Apple Inc. v. Achates
ReferencePubl’g, Inc., Case IPR2013-00080, slip op. at 12
(PTAB June 2,2014) (Paper 90) (noting that the agreement
“does not give the [indemnitor] the right to intervene or
control [the indemnitee’s] defense to any charge of patent
infringement”).
We also are mindful that, in a prior proceeding
involving the same petitioner,5 the Board rejected patent
the Board
owner’s privity argument because,
found that “Patent Owner does not provide evidence
sufficient to demonstrate that [the named party] provided
prompt notification to Petitioner, and that Petitioner
exercised sole control or full authority according to the
Agreements.” ARRIS Group, Inc. v. C-Cation Techs., Case
IPR2014-00746, slip op. at 8-10 (Paper 22) (PTAB Nov.
24, 2014). The Board, in the prior proceeding, also noted
that “absent is evidence of Petitioner’s conduct in the 2011
district court proceeding from which we could infer that
Petitioner exercised control or could have exercised control
as provided for in the Agreements.” Id.

5. The petitioner (ARRIS Group, Inc.) in Case
IPR2014-00746was the predecessor in interest of Petitioner
here (ARRIS International pic). Ex. 2002,2 (ARRIS Form
10-K dated February 29,2016).

125a
Appendix F
Here, to the contrary, the evidence in the instant
proceeding shows that Petitioner had substantial control
over the Delaware actions. Exs. 2007-23. As discussed
above, Petitioner had the obligation to defend the patent
infringement claim brought against its customer with
respect to its accused product. Id.

Petitioner had the same practical opportunity
to control the course of the proceedings that would be
available to a named party. Therefore, the facts in the
prior proceeding are distinguishable from the instant
proceeding.
In sum, based on the evidence in the entirety of this
record, we find that Petitioner had substantial control over
the Delaware actions. One or more of the defendants of
the Delaware actions was in privity with Petitioner, and
those defendants were served with a complaint, alleging
infringement of the ’565 patent more than one year prior to
the filing of the instant Petition. Therefore, we determine
that the instant Petition is time-barred under § 315(b).
C. Motion for Additional Discovery
In its Motion for Additional Discovery, Patent Owner
indicates that the parties had conferred and agreed to
additional discovery between themselves. Disc. Mot.
1; 37 C.F.R. § 42.51 (b)(2)(i) (“The parties may agree to
additional discovery between themselves.”). In particular,
Petitioner agreed to produce “relevant indemnification

126a
Appendix F
provisions from agreements with the Delaware defendants,
any indemnification claims made by the defendants,
and ARRIS’s responses to those claims.” Ex. 2035; Ex.
2030, 3-4. Petitioner produced the following documents:
several indemnification agreements; letters from several
of the Delaware defendants to Petitioner, requesting
. indemnification
; and several
response letters from Petitioner to one or more of the
Delaware defendants. Exs. 2009-23.
In its Motion for Additional Discovery, Patent Owner
alleges that Petitioner did not produce the indemnification
agreement and the response letter for each of the
customers that sent indemnification notices to Petitioner.
Disc. Mot. 1-2. Patent Owner requests discovery of
missing documents and interrogatories concerning
Petitioner’s involvement in the Delaware litigation. Id:, Ex.
2033. Patent Owner avers that the requested additional
discovery is necessary in the interests of justice, arguing
that it is beyond speculation that Petitioner was in privity
with the Delaware defendants. Disc. Mot. 2-3.
Under the circumstances of this case, we need not
assess the merits of Patent Owner’s Motion for Additional
Discovery. As discussed above, even without the additional
requested documents and information, the evidence in the
current record establishes sufficiently that Petitioner was
in privity with one or more of the Delaware defendants,
and we determine that the instant Petition is time-barred
under § 315(b).
Accordingly, Patent Owner’s Motion for Additional
Discovery is dismissed as moot.
j

127a
Appendix F
D. Motions to Seal
Patent Owner filed unredacted and redacted versions
of its Preliminary Response (Papers 9 and 10), along with
its First Motion to Seal (Paper 8). Patent Owner also filed
a Stipulated Default Protective Order agreed to by the
parties, which is a copy of the Board’s Default Protective
Order and attached to Patent Owner’s First Motion to Seal.
Trial Practice Guide, 77 Fed. Reg. 48,760 (Aug. 14,2012),
App’x B. Patent Owner requests the Board to enter the
Stipulated Default Protective Order. Because the parties
agree to the terms of the Board’s Default Protective Order,
we hereby enter the Stipulated Default Protective Order,
which governs the treatment and filing of confidential
information in the instant proceeding.
In its First Motion to Seal, Patent Owner seeks to
seal Exhibits 2008—23 and portions of its Preliminary
Response that discuss the substance of these exhibits.
Exhibits 2008-23 were produced by Petitioner pursuant
to the Stipulated Default Protective Order, and
designated “CONFIDENTIAL- PROTECTIVE ORDER
MATERIAL” by Petitioner. Exhibits 2008-23 relate to
indemnification agreements between Petitioner and its
customers.
Patent Owner filed its Second Motion to Seal (Paper
11) along with unredacted and redacted versions of its
Motion for Additional Discovery (Papers 12 and 13). Patent
Owner seeks to seal Exhibits 2033 and 2038-42, as well
as portions of its Motion for Additional Discovery, which
discuss the substance of Exhibits 2008-23. Petitioner

128a
Appendix F
filed a Motion to Seal (Paper 16) along with unredacted
and redacted versions of its Opposition (Papers 14 and 15)
to the Motion for Additional Discovery. Petitioner seeks to
seal portions of its Opposition that discuss the substance
of Exhibits 2008-23. Patent Owner filed its Third Motion
to Seal (Paper 17) along with unredacted and redacted
versions of its Reply (Papers 18 and 19) to Petitioner’s
Opposition to the Motion for Additional Discovery. Patent
Owner seeks to seal portions of its Reply that discuss the
substance of Exhibits 2008—23.
Neither party files an opposition to any of the Motions
to Seal filed in this proceeding.
The record for an inter partes review shall be made
available to the public, except as otherwise ordered,
and a document filed with a motion to seal shall be
treated as sealed until the motion is decided. 35 U.S.C.
§ 316(a)(1); 37 C.F.R. § 42.14. There is a strong public
policy that favors making information filed in inter partes
review proceedings open to the public. Garmin Int’l v.
Guozzo Speed Techs., LLC, Case IPR2012-00001, slip op.
1-2 (PTAB Mar, 14, 2013) (Paper 34). The moving party
bears the burden of showing that the relief requested
should be granted. 37 C.F.R. § 42.20(c). That includes
showing that the information is truly confidential, and that
such confidentiality outweighs the strong public interest in
having an open record. See Garmin, Case IPR2012-00001,
slip op. at 3. The standard for granting a motion to seal is
good cause. 37 C.F.R. § 42.54.
Having considered the documents at issue, we are
persuaded that good cause exists to keep the documents

129a
Appendix F
under seal as they related to confidential business
information of Petitioner. In particular, Exhibits 2008-23,
and all other documents that discuss the substance of
these exhibits, relate to indemnification agreements
between Petitioner and its customers. The details of these
agreements are unimportant to the patentability of the
challenged claims. The public’s interest in having access
to the details of these agreements is minimal. Hence, we
agree with the parties that the documents should be kept
under seal.
We hereby grant the Motions to Seal with respect
to the following documents: Exhibits 2008-23, 2033,
and 2038-42; and unredacted version of Patent Owner’s
Preliminary Response (Paper 9), Patent Owner’s Motion
for Additional Discovery (Paper 12), Petitioner’s Opposition
(Paper 15), and Patent Owner’s Reply (Paper 18).
In addition, this Decision is filed under seal designated
as “For Board and Parties Only” as it discusses and cites to
the documents under seal. The parties are ordered to file
jointly a proposed redacted version of this Decision within
5 business days from the entry of this Decision.
III. CONCLUSION
For the foregoing reasons, the Petition is time-barred
under § 315(b).

130a
Appendix F
IV. ORDER
In consideration of the foregoing, it is
ORDERED that the Petition is denied, and no trial is
instituted
FURTHER ORDERED that Patent Owner’s Motion
for Additional Discovery is dismissed as moot.
FURTHER ORDERED that Patent Owner’s Motions
to Seal and Petitioner’s Motion to Seal are granted; the
following papers shall be seal as “Board and Parties Only”:
Exhibits 2008-23, 2033, and 2038-42; and unredacted
versions of Patent Owner’s Preliminary Response (Paper
9), Patent Owner’s Motion for Additional Discovery (Paper
12), Petitioner’s Opposition (Paper 15), and Patent Owner’s
Reply (Paper 18);
FURTHER ORDERED that the Stipulated Default
Protective Order attached to Patent Owner’s First Motion
to Seal (Paper 8) be entered; and
FURTHER ORDERED that, within 5 business
days from the entry of this Decision, Patent Owner and
Petitioner jointly file a proposed redacted version of this
Decision.

131a
APPENDIX G — DENIAL OF REHEARING OF
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED APRIL 26, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

2018-2426,2018-2427, 2018-2428, 2018-2429, 2018-2430
ARRIS INTERNATIONAL PLC,
Appellant,
v.
CHANBOND, LLC,
Appellee,
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Intervenor.
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201800570, IPR2018-00572, IPR2018-00573, IPR2018-00574,
IPR2018-00575.

132a
Appendix G
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL,
Circuit Judges.
PER CURIAM.
ORDER
ARRIS International pic filed a petition for rehearing
en banc. Responses to the petition were invited by
the court and filed by Appellee ChanBond, LLC and
Intervenor Andrei Iancu. The petition was first referred
as a petition for rehearing to the panel that heard the
appeal, and thereafter the petition for rehearing en banc
was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
FOR THE COURT
April 26. 2019
Date

/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

133a
APPENDIX H — PETITION FOR REHEARING
AND ADDENDUM OF THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL
CIRCUIT, FILED FEBRUARY 11, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Nos. 2018-2426, -2427, -2428, -2429, -2430
ARRIS INTERNATIONAL PLC,
Appellant,
v.
CHANBOND, LLC,
Appellee,
ANDREI IANCU, DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
Intervenor,
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos.
IPR2018-00570, IPR2018-00572, IPR2018-00573,
IPR2018-0057J/, and IPR2018-00575
APPELLANT ARRIS INTERNATIONAL PLC’S
PETITION FOR REHEARING EN BANC
February 11,2019

134a
Appendix H
Patrick D. McPherson
Duane Morris LLP
505 9th Street NW, Suite 1000
Washington DC 20004
(202) 776-5214
pdmcpherson@duanemorris.com
Diana Sangalli
Duane Morris LLP
1330 Post Oak Boulevard, Suite 800
Houston, Texas 77056-3166
dmsangalli@duanemorris.com
Matthew C. Gaudet
Duane Morris LLP
1075 Peachtree Street NE,
Suite 2000
Atlanta, Georgia 30309-3929
MCGaudet@duanemorris.com
Counsel for Appellant ARRIS
International pic
CERTIFICATE OF INTEREST
Counsel for Appellant ARRIS International pic
certifies the following:
1. The full name of every party represented by me is:
ARRIS International pic.
2. The name of the real party in interest represented
by me is: ARRIS International pic, ARRIS Solutions, Inc.
and ARRIS Technology, Inc.

135a
Appendix H
3. All of the parent corporations and any publicly
held companies that own more than 10 percent or more
of the stock of the party represented by me are: ARRIS
Group, Inc.
4. The names of all law firms and the partners or
associates that appeared for the party now represented
by me in the trial court or agency are expected to appear
in this court are: None.
5. The title and number of any case known to me
to be pending in this or any other court or agency that
will directly affect or be directly affected by this court’s
decision in the pending appeal: None.
February 11, 2019
Isl Patrick D. McPherson
Patrick D. McPherson
Attorney for Appellant
[TABLES INTENTIONALLY OMITTED]
STATEMENT OF COUNSEL - FEDERAL CIRCUIT
RULE 35(b)(2)
Based on my professional judgment, I believe this
appeal requires an answer to one or more precedent­
setting questions of exceptional importance:
1. Should the Court’s panel decision in St. Jude
Medical, Cardiology Division, Inc. v. Volcano Corp., 749

136a
Appendix H
F.3d 1373 (Fed. Cir. 2014) be overturned in view of the
Supreme Court’s decision in Cuozzo Speed Technologies,
LLC v. Lee, 136 S. Ct. 2131 (2016) and the Federal Circuit’s
en banc decision in Wi-Fi One, LLC v. Broadcomm Corp.,
878 F.3d 1364 (Fed. Cir. 2018) (en banc) and panel decision
in Arthrex, Inc. v. Smith & Nephew, Inc., 880 F.3d 1345
(Fed. Cir. 2018).
2. Does this Court have jurisdiction to hear ARRIS’s
appeal of the Patent Trial and Appeal Board’s (“PTAB”)
determination that ARRIS’s Inter Partes Review (“IPR”)
petition was time-barred pursuant to 35 U.S.C. §315(b), a
ruling that has sweeping effects of the application of the
law of privity and real-party-in-interest.
Based on my professional judgment, I believe the
panel decision is contrary to the following decisions of
the Supreme Court of the United States and precedents
of this Court: Cuozzo Speed Technologies, LLC v. Lee,
136 S. Ct. 2131 (2016); Weyerhaeuser Co. v. U.S. Fish &
Wildlife Service, 139 S. Ct. 361 (2018); Wi-Fi One, LLC
v. Broadcomm Corp., 878 F.3d 1364 (Fed. Cir. 2018)(en
banc); Arthrex, Inc. v. Smith & Nephew, Inc., 880 F.3d
1345 (Fed. Cir. 2018).
February 11, 2019
/s/ Patrick D. McPherson
Patrick D. McPherson
Attorney for Appellant

137a
Appendix H
I. INTRODUCTION AND STATEMENT
OF THE CASE
This case presents the opportunity for the en banc
Court to consider the scope and application of 35 U.S.C.
§314(d) and 35 U.S.C. §315(b) regarding institution
decisions in light of the Federal Circuit’s decision
addressing the interplay between §314(d) and §315(b) in
Wi-Fi One, LLC v. Broadcomm Corp., 878 F.3d 1364 (Fed.
Cir. 2018) (en banc), and the available avenues of review in
view of the Federal Circuit’s decision in Arthrex, Inc. v.
Smith & Nephew, Inc., 880 F.3d 1345 (Fed. Cir. 2018) that
35 U.S.C. §319 does not provide the exclusive jurisdiction
for review of decisions from the PTAB. Specifically, in
Wi-Fi One, the en banc Court found that §314(d) did not
preclude appellate review of a determination as to whether
an Inter Partes Review (“IPR”) petition was time-barred
pursuant to 35 U.S.C. §315(b). Although the decision in
Wi-Fi One was based on a final written decision issued
by the PTAB, the en banc Court relied on the Supreme
Court’s holding in Cuozzo Speed Technologies, LLC v.
Lee, 136 S. Ct. 2131 (2016) to find that “the statutory
scheme as a whole demonstrates that §315(b) is not ‘closely
related’ to the institution decision addressed in §314(a),
and it therefore is not subject to §314(d)’s bar on judicial
review.” Wi-Fi One, 878 F.3d at 1374 (citing Cuozzo, 136
S. Ct. at 2142).
The facts of this case demonstrate that, under the
PTAB’s view of §315(b), there are circumstances in which
a PTAB’s non-institution decision can subject a party to
a substantive estoppel without any avenue for appellate

138a
Appendix H
review, raising a serious due process issue. This result is
at odds with the Supreme Court’s recital in Weyerhaeuser
Co. v. U.S. Fish & Wildlife Service, 139 S. Ct. 361 (2018)
of the “basic presumption of judicial review [for] one
‘suffering legal wrong because of agency action.’” Id. at 370
(citing Abbott Labs. v. Gardner, 387 U.S. 136,140 (1967)).
Specifically, in this case, Petitioner ARRIS was never
sued in district court for infringement of the patents at
issue in the IPRs below, but several of Petitioner ARRIS’s
customers were. At the time ARRIS filed its IPR petitions,
those customers had already participated in IPR petitions
filed by another vendor - a competitor of ARRIS - and
they were time-barred from filing another petition under
35 U.S.C. §315(b). See Opposition to Motion to Dismiss
at 2-3, ARRIS Int’l pic v. ChanBond, LLC, No. 18-2426
(Fed. Cir. Nov. 2, 2018). The ultimate legal issue decided
by the PTAB in this case was whether Petitioner was a
real-party-in-interest or privy of its customers, based on
the previously filed IPRs or the district court litigation,
and thus also subject to the §315(b) time-bar. In other
words, the PTAB decided whether to impose a substantive
estoppel on Petitioner ARRIS.
While due process dictates that the imposition of
a substantive estoppel by an administrative agency is
presumptively subject to appellate review, the underlying
facts of the PTAB’s decision in this case demonstrate the
particular urgency in this scenario. Petitioner ARRIS
filed five Petitions for inter partes review directed to
three patents that Petitioner ARRIS’s customers - but not
ARRIS itself - had been accused of infringing. The twist

139a
Appendix H
in this case is that at the time that the PTAB rendered its
decision ending the IPRs, ARRIS and the Patent Owner
were involved in an active dispute before the PTAB over
the Patent Owner’s unjustified request for additional
discovery regarding the real-party-in-interest/privity
issue. Rather than resolve the discovery dispute, the
PTAB instead held that ARRIS was time-barred because
“[o]ne or more of the defendants of the Delaware actions
was in privity with Petitioner, and those defendants were
served with a complaint, alleging infringement of the
[asserted patents] more than one year prior to the filing
of the instant Petition.” ARRIS Int’l pic v. ChanBond,
LLC, IPR2018-00570, Paper 25 at 20-21 (PTAB July 20,
2018)1. The PTAB reached this conclusion - and imposed a
substantive estoppel on Petitioner - based on an impossible
interpretation of a single agreement without considering
any testimony or other facts. This is precisely the type of
agency decision that should be subject to appellate review.
The Federal Circuit panel wholly ignored the unusual
procedural aspects of the IPR proceedings in this case.
Specifically, the PTAB’s decision under §315(b) finding
that ARRIS was time-barred because “[o]ne or more of
the defendants of the Delaware actions was in privity
with Petitioner” affects ARRIS’s substantive rights
and subjects ARRIS to the estoppels that flow from the
activities of the defendants, including the prior IPRs in
which the defendants participated and the rulings in the
pending district court litigation of which ARRIS is not a
party. The Board issued its real-party-in-interest/privity
1. The PTAB used the same substantive language in each IPR.

140a
Appendix H
rulings weeks before its statutory deadline for issuing its
institution decisions and in the midst of the unresolved
discovery dispute between ARRIS and the Patent Owner
on the very same real-party-in-interest/privity issue.
On the §314(d) issue, the panel found that Wi-Fi One
did not overrule St. Jude Medical, Cardiology Division,
Inc. v. Volcano Corp., 749 F.3d 1373 (Fed. Cir. 2014)
because, according to the panel, Wi-Fi One only concerned
review of the Board’s §315(b) determination in a final
written decision, not a decision denying institution. ARRIS
Int’l pic v. ChanBond, LLC, No. 18-2426, slip op. at 2- 3
(Fed. Cir. Dec. 27,2018) (hereinafter Panel Order). In so
holding, the panel overlooked that the en banc Court’s
analysis in Wi-Fi One to determine if §315(b) was closely
related to the §314(a) institution decision criteria followed
the Supreme Court’s analysis in Cuozzo regarding
the effect of §314(d)’s appeal bar on the institution
decision under §314(a). And, with respect to the Federal
Circuit’s holding in Arthrex, the panel distinguished
that decision on the purported basis that Arthrex was
limited to adverse decisions. In reaching that incorrect
conclusion, the panel failed to acknowledge that 28 U.S.C.
§1295(a)(4)(A) provides an appeal path that is not
constrained to final written decisions as set forth in 35
U.S.C. §319. Id. at 3. Finally, the panel overlooked the
recent Supreme Court case of Weyerhaeuser, holding
that even a discretionary agency decision can be subject
to review.
The dismissal of ARRIS’s appeal of the PTAB
decisions finding ARRIS to be in privity with the

141a
Appendix H
defendants in the district court litigation deprives ARRIS
of its due process right to challenge the abrogation of its
substantive rights by the PTAB. Rehearing enbanc of this
appeal is required to overturn St. Jude, correct the panel’s
erroneous decision, and to decide important issues of law
in light of Cuozzo, Weyerhaeuser, Wi-Fi One and Arthrex.
II. ARGUMENT
A. The En Banc Court Should Decide Important
Legal Issues of First Impression as to the
Scope of Application of the Court’s Panel
Decision in St. Jude (2014) in View of the
Subsequent Supreme Court Decision in Cuozzo
(2016), the En Banc Court’s Decision in W-Fi
One (2018) and the Court’s Ruling in Arthrex
(2018)
This case presents the opportunity for the Court
to consider en banc the proper scope and application of
§314(d) post-Wi-Fi One and post-Arthrex, and specifically
to decide the application of §314(d) to the §315(b) timebar issue at the institution stage, particularly in view
of the due process issue arising from the imposition of a
substantive estoppel by an administrative agency without
the opportunity for appellate review.
1.

The En Banc Court in Wi-Fi One Held that
Time-Bar Determinations Under §315(b)
are Reviewable by this Court

In Wi-Fi One, the en banc Court considered the scope
of §314(d) as it applied to a review of a Board decision

142a
Appendix H
under §315(b) after a final written decision was issued.
The Wi-Fi One court relied on the guidance provided
by the Cuozzo court in determining the proper scope of
the appeal bar of §314(d). The specific issue in Cuozzo
was whether the PTAB had made a proper institution
decision under §314(a) in light of Cuozzo’s assertion that
the petition lacked the “particularity” required by 35
U.S.C. §312. Cuozzo, 136 S. Ct. at 2142. In Cuozzo, the
Supreme Court expressly limited its holding to the facts
of that case, and left it for this Court to decide the proper
application of §314(d) to other IPR appellate issues, such
as the §315(b) time-bar issue, in light of the guidance
provided by Cuozzo:
[W]e emphasize that our interpretation applies
where the grounds for attacking the decision to
institute inter partes review consist of questions
that are closely tied to the application and
interpretation of statutes related to the Patent
Office’s decision to initiate inter partes review.
See §3U(d) (barring appeals of “determinations
... to initiate an inter partes review under this
section” (emphasis added)). This means that we
need not, and do not, decide the precise effect of
§314(d) on appeals that implicate constitutional
questions, that depend on other less closely
related statutes, or that present other questions
of interpretation that reach, in terms of scope
and impact, well beyond “this section.”
Id. at 2141 (emphasis in original).

143a
Appendix H
The Supreme Court held that agency action outside
of its statutory limits and other “shenanigans” are
properly reviewable under 35 U.S.C. §319 or the
Administrative Procedure Act. Id. at 2141-42 (citing 5 U.S.C
§§706(2)(A)-(D)).
Based on this guidance, the en banc Court in Wi-Fi
One, stated that “[t]he \Cuozzo\ Court made clear that its
holding was limited; it expressly left open the potential
for review, under certain circumstances of decisions to
institute IPR.” Wi-Fi One, 878 F.3d at 1369-70. Thus, the
Wi-Fi One Court considered whether the §315(b) time-bar
issue was closely related to §314(a) such that the appeals
bar of §314(d) should apply.
In conducting its review, the Wi-Fi One Court
recognized that there is a “‘strong presumption’ favoring
judicial review of administrative actions, including the
Director’s IPR institution decisions,” and specifically noted
that “[fjinal decisions of the PTO are reviewed according to
the standard provided by the Administrative Procedures
Act,” and that “28 U.S.C. 1295(a)(4)(a) provides this court
exclusive jurisdiction over an appeal from a decision of‘the
Patent Trial and Appeal Board ... with respect to ... inter
partes review under title 35.’” Id. at 1371-72, n.6.
In view of this strong presumption of judicial review,
the Wi-Fi One Court reviewed the statutory language and
legislative history of AIA. It held “[t]he parties have not
cited, nor are we aware of, any specific legislative history
that clearly and convincingly indicates congressional intent
to bar judicial review of §315(b) time-bar determinations.”
Id. at 1372.

144a
Appendix H
With respect to the statutory language, the Wi-Fi One
Court noted that §314(a) identifies a threshold requirement
“focused on the patentability merits of particular claims”
for institution, and it grants the Director discretion to
not institute even when the threshold is met. Id. It then
contrasted the language of §314(a) with the language of
§315(b) and held that §315(b) is “unrelated to the Director’s
preliminary patentability assessment or the Director’s
discretion not to initiate an IPR even if the threshold
‘reasonable likelihood’ is present.” Id. at 1373. This
holding is consistent with the dictates of due process. A
decision not to institute a petition based on a discretionary
decision on the “reasonable likelihood” threshold does
not necessarily implicate due process issues because that
decision does not impose any substantive estoppel in the
district court or other hardship on a party. However, a
decision that a petition is time-barred based on a realparty-in-interest finding imposes a substantive estoppel
and, therefore, implicates due process concerns reviewable
by this Court.
The Wi-Fi One Court concluded that the statutory
scheme as a whole demonstrates that §315(b) is not closely
related to the institution decision addressed in §314(a)
and specifically held “that time-bar determinations under
§315(b) are reviewable by this court.” Id. at 1374.
Although the Wi-Fi One Court was considering the
scope of §314(d) in the context of a decision to institute
challenged after issuance of a final written decision,
the rationale cited by the Court for why §314(d) is not
an absolute bar to appeal applies equally to a denial

145a
Appendix H
of institution because §315(b) “is not closely related to
§314(a)” regardless of whether the §315(b) decision is made
at the time of institution or in a final written decision.
The Wi-Fi One Court held that the §315(b) time-bar is
fundamentally different than a procedural requirement
and is unrelated to the question of patentability being
addressed by the institution decision. Id. at 1374. The
Court also recognized that a decision under §315(b)
“governs the relation of IPRs to other proceedings or
actions, including actions taken in district court.” Id.
Here, the panel decision affects the substantive rights
of Petitioner as it relates to the previous IPRs filed by the
defendants in the litigation, as well as the actions taken by
the defendants in the district court litigation. The panel’s
decision barring review of the Board’s decision affects
Petitioner’s substantive rights and deprives Petitioner of
the due process to which it is entitled. For example, the
estoppel provision of 35 U.S.C. §315(e) that arises from
a final written decision in an IPR impacts a real-partyin-interest’s or privy’s ability to challenge the validity of
the asserted patents in a district court action. Likewise,
a ruling in the district court litigation can be binding on
a real-party-in-interest or privy.
2.

Arthrex Held that §319 Does Not Provide
Exclusive Jurisdiction for Appeals From
PTAB Decisions

In Arthrex, this Court considered whether an adverse
final judgment is appealable. The Court started its analysis
by citing the general rule “that judicial review is presumed

146a
Appendix H
to be available with respect to final agency action” noting
the strong presumption that Congress intends judicial
review of administrative actions. Arthrex, 880 F.3d at
1348 (citing Cuozzo and the APA). The Court then found
that the adverse judgment was not an institution decision
under §314, and thus that the appellate bar of §314(d)
did not apply. Id. at 1348-1349. The Court held that the
adverse judgment was a final determination because the
judgment terminated the IPR proceedings. Id. at 1348.
The Court rejected the argument that §319 created the
exclusive means for appeal and held “[o]n its face, §319
does not cabin the appeal rights conferred by §1295.” Id.
Based on these findings, the Court held:
Here, the language of 28 U.S.C §1295 appears
to provide for appeal. Section 1295(a)(4)(A)
provides the Federal Circuit with jurisdiction
over “an appeal from a decision of the Patent
Trial and Appeal Board ... with respect to ...
inter partes review under title 35.” The adverse
judgment in this case is a decision of the Board,
and the decision is “with respect to” an inter
partes review proceeding. The judgment is
also final, as the judgment terminated the
IPR proceeding. See In re Arunachalam, 824
F.3d 987, 988 (Fed. Cir. 2016) (holding that
§1295(a)(4)(A) incorporates a finality
requirement); Copelands’ Enters., Inc. v. CNV,
Inc., 887 F.2d 1065,1067-68 (Fed. Cir. 1989)(en
banc){same).
Id. at 1345.

147a
Appendix H
Before the panel, the Patent Owner and the Intervenor
argued that §319 provides the sole basis for review of a
PTAB decision. The panel should have rejected that
argument in view of Arthrex and held that the language
of §1295 on its face provides an appeal right for a Board
decision made pursuant to §315(b). The time-bar decision
in this case is a decision of the Board, and the decision is
“with respect to” an inter partes review proceeding. The
judgment is also final, as the judgment terminated the
IPR proceeding.
3.

The Court’s Panel Decision in St. Jude
Should be Overturned in view of Cuozzo,
Wi-Fi One and Arthrex

In this appeal, the Patent Owner argued, and the
panel agreed, that this Court’s prior decision in St.
Jude foreclosed ARRIS’s appeal. Panel Order at 2-3. St.
Jude held that (1) a review of the PTAB’s decision under
the time-bar of §315(b) is barred by §314(d), and (2) 28
U.S.C §1295(a)(4)(A) provides the Federal Circuit with
jurisdiction only over final written decisions from the
PTAB. St. Jude, 749 F.3d at 1376. Both holdings are no
longer viable in view of subsequent Supreme Court and
Federal Circuit precedent.
In light of Wi-Fi One, it can now be seen that the St.
Jude Court did not properly frame the issue of whether
the appeal bar of §314(d) applied to the timebar of §315(b).
The St. Jude decision granted a motion to dismiss an
appeal of a denial of institution based on a §315(b) timebar decision. The St. Jude decision issued before Cuozzo

148a
Appendix H
and Wi-Fi One, and was premised upon the court’s finding
that the §314(d) appeal bar “may well preclude all review
by any route.” Id. Thus, the St. Jude panel did not have
the guidance from the Cuozzo and Wi-Fi One decisions
that now limit the applicability of §314(d).
Under the Cuozzo framework, the St. Jude panel’s
analysis should have aligned with the analysis by the
Wi-Fi One en banc Court to determine whether the
§315(b) time-bar was “closely related” to the §314(a)
initial determination. Moreover, the Wi-Fi One decision
highlights that St. Jude did not consider the applicable
Supreme Court authorities in connection with its decision
to preclude all review of the PTAB’s §315(b) determination.
Specifically, the St. Jude panel did not consider the strong
presumption of reviewability of agency action under the
APA nor related Supreme Court cases cited by the Wi­
Fi One en banc Court. And, unlike the Wi-Fi One Court,
the St. Jude panel also failed to recognize that a decision
under §315(b) affects the substantive rights of the parties.
The St. Jude panel also held that pursuant to §319,
“[t]he final written decision is the only decision that the
statute authorizes a dissatisfied party to appeal” and that
28 U.S.C. §1295(a)(4(A) is “most naturally read to refer
precisely to the Board’s decision under section 318(a) on
the merits of the inter partes review, after it ‘conducts’ the
proceeding that the Director has ‘instituted.’” Id. at 1374,
1376. The St. Jude panel thus did not have the guidance
of Arthrex that held that final written decisions under
§318(a) are not the only decisions that may be appealed,
and that 28 U.S.C. §1295(a)(4)(A) provides jurisdiction to a

149a
Appendix H
final determination that terminates the IPR proceedings.
Arthrex, 880 F.3d at 1349.
For all of the foregoing reasons, the Court should
reconsider the viability of the St. Jude panel holding,
which has been rendered suspect in light of Cuozzo, Wi-Fi
One
Arthrex. Because of the importance of this issue,
ARRIS respectfully urges en banc review.
B. This Court Has Jurisdiction to Hear Petitioner
ARRIS’s Appeal Under Cuozzo, Wi-Fi One,
Arthrex and Weyerhaeuser as to Petitioner
Being Deemed to be a Time-Barred Privy
of its Customers as a Result of a Previous
Suit Against Petitioner’s Customers (but
not Petitioner), a Ruling That Would Have
Sweeping Effects on the Application of the Law
of Privity and Real-Party-in-Interest
While the Cuozzo court stated that “the agency’s
decision to deny a petition is a matter committed to the
Patent Office’s discretion,” Cuozzo, 136 S. Ct. at 2140,
this statement does not foreclose review of the agency’s
determination of whether the §315(b) time-bar applies.
As the Wi-Fi One court held, the §315(b) time-bar is
“unrelated” to the Director’s discretion. Wi-Fi One, 878
F.3d at 1376. Furthermore, as made clear in the recent
Weyerhaeuser decision, the fact that a matter is committed
to agency discretion does not make it unreviewable.
Weyerhaeuser considered a property owner’s ability
to challenge the Secretary of the Interior’s designation

150a
Appendix H
of the property owner’s land as a critical habitat under
16 U.S.C. §1533(b)(2) of the Endangered Species Act.
Weyerhaeuser, 139 S. Ct. at 368. The Endangered Species
Act provides discretionary authority to the Secretary to
designate a “critical habitat” but also requires that the
Secretary consider the economic and any other relevant
impact in makings its discretionary determination of
critical habitat. Id.
The Supreme Court noted that the APA creates a
“basic presumption of judicial review [for] one ‘suffering
legal wrong because of agency action.’” Id. at 370 (citing
Abbott Labs., 387 U.S. at 140). The Supreme Court further
noted that “[t]he presumption may be rebutted only if the
relevant statute precludes review, 5 U.S.C. §701(a)(l), or
if the action is ‘committed to agency discretion by law,’
§701(a)(2).” Id.
Weyerhaeuser recognized the tension between the
APA’s “prohibition of judicial review for actions committed
to ‘agency discretion’” under 5 U.S.C. §701(a)(2), and “the
command in §706(2)(A) that courts set aside any agency
action that is ‘arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with the law.’” Id.
The Supreme Court found that the property owner
was not foreclosed from seeking review of the Secretary’s
decision, holding even though the use of the word “may” in
the statute “certainly confers discretion on the Secretary,”
this discretion does not relieve the Secretary from the
requirement to consider the economic impact. Id. at 371.

151a
Appendix H
In so holding, the Supreme Court reiterated its position
that it reads the exception in §701(a)(2) to apply in “those
rare circumstances where the relevant statute is drawn so
that a court would have no meaningful standard against
which to judge the -agency’s exercise of discretion.” Id. at
370-371 (citing Lincoln v. Vigil, 508 U.S. 182,191 (1993)).
Here, like the statute in Weyerhaeuser, the Patent
Statute provides relevant factors under §315(b) to guide
the PTAB in the exercise of its discretion under §314(a).
Thus, this case in not one of those rare instances in which
an agency’s exercise of discretion is not reviewable.
Rather, contrary to the position adopted by the panel
in this case, the APA provides a cause of action under
§706(2)(A) to challenge the Director’s discretionary
decision with respect to the relevant factors under §315(b),
and this Court has jurisdiction to hear that cause of action
under 28 U.S.C. §1295(a)(4)(A).
III. CONCLUSION
For the foregoing reasons, ARRIS requests that the
Court grant rehearing en banc, vacate the panel opinion
and rehear this appeal.
Respectfully submitted,
/s/Patrick D. McPherson
Patrick McPherson
DUANE MORRIS LLP
505 9th St. NW, Suite 1000
Washington, D.C. 20004
202.776.5210
pdmcpherson@duanemorris.com

152a
Appendix H
Diana Sangalli
Duane Morris LLP
1330 Post Oak Boulevard, Suite 800
Houston, Texas 77056-3166
dmsangalli@duanemorris.com
Matthew C. Gaudet
Duane Morris LLP
1075 Peachtree Street NE,
Suite 2000
Atlanta, Georgia 30309-3929
MCGaudet@duanemorris.com
Counsel for Appellant ARRIS
International pic

153a
Appendix H
ADDENDUM
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-2426, -2427, -2428, -2429, -2430
ARRIS INTERNATIONAL PLC,
Appellant,
v.
CHANBOND, LLC,
Appellee.
ANDREI IANCU, Under Secretary of Commerce for
Intellectual Property and Director of the United States
Patent and Trademark Office,
Intervenor.
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201800570, IPR2018-00572, IPR2018-00573, IPR2018-00574,
and IPR2018-00575.
ON MOTION
Before PROST, Chief Judge, O’MALLEY and STOLL,
Circuit Judges.
O’MALLEY, Circuit Judge.

154a
Appendix H
ORDER
ChanBond, LLC moves to dismiss these appeals for
lack of jurisdiction. ARRIS International PLC opposes
the motion. ChanBond replies. The Director of the United
States Patent and Trademark Office moves out of time to
intervene in support of dismissal.
ChanBond is the owner of U.S. Patent Nos. 7,941,822;
8,341,679; and 8,984,565. In September 2015, ChanBond
sued various telecommunications companies in the United
States District Court for the District of Delaware for
infringing those patents. In February 2018, ARRIS
filed five petitions requesting inter partes review (IPR)
of various claims of those patents. In its preliminary
responses, ChanBond argued that the petitions were timebarred under 35 U.S.C. § 315(b) because ARRIS was in
privity with the defendants in the Delaware action and
ARRIS filed its petitions more than a year after the filing
of that complaint. The Board agreed and denied institution
of all five petitions. ARRIS then filed these appeals from
the denial of institution decisions.
ChanBond argues that ARRIS’s appeals are foreclosed
under St. Jude Medical, Cardiology Division, Inc. v.
Volcano Corp., 749 F.3d 1373 (Fed. Cir. 2014). We agree.
As is the case here, the petitioner in St. Jude appealed
from the Board’s decision to deny institution of IPR based
on the Board’s determination that the petition was timebarred under § 315(b). We explained the statutory contrast
between a “determination . . . whether to institute” a
proceeding, which is “final and nonappealable,” 35 U.S.C.

155a
Appendix H
§ 314(d), and the “final written decision” determining
patentability, 35 U.S.C. § 318(a), and we held that our
review authority under 28 U.S.C. § 1295(a)(4)(A) does not
extend to appeals from decisions not to institute. St. Jude,
749 F.3d at 1375-76.
Nothing in Wi-Fi One,. LLC v. Broadcom Corp., 878
F.3d 1364 (Fed. Cir. 2018) (en banc), undermines that
holding. Wi-Fi One concerned review of the Board’s
§ 315(b) determination in a final written decision, not a
decision denying institution. See id. at 1371. As both Wi­
Fi One and subsequent precedent have reiterated, “[i]f
the Director decides not to institute, for whatever reason,
there is no review.” Saint Regis Mohawk Tribe v. Mylan
Pharm. Inc., 896 F.3d 1322,1327 (Fed. Cir. 2018); see also
Wi-Fi One, 878 F.3d at 1372 (noting that “the agency’s
decision to deny a petition is a matter committed to the
Patent Office’s discretion” (quoting Cuozzo Speed Techs.,
LLC v. Lee, 136 S. Ct. 2131,2140 (2016))).
ARRIS’s reliance on Arthrex, Inc. v. Smith &
Nephew, Inc., 880 F.3d 1345 (Fed. Cir. 2018), in support of
jurisdiction over these appeals is also misplaced. Far from
review over a non-institution decision, Arthrex concerned
the issue of whether a party could appeal from a final
adverse judgment entered under 37 C.F.R. § 42.73(b).
Arthrex distinguished St. Jude, stating that “St. Jude
did not involve a similar situation, and the availability of
appeal of final adverse judgment decisions was not directly
addressed in that case.” Id. at 1349.
In view of the foregoing, we conclude that we lack
jurisdiction to hear ARRIS’s appeals.

156a
Appendix H
Accordingly,
It Is Ordered That:
(1) The stay of the briefing schedule is lifted.
(2) The Director’s motion to intervene is granted. The
revised official caption is reflected above.
(3) ChanBond’s motion to dismiss is granted. The
appeals are dismissed.
(4) Each side shall bear its own costs.
FOR THE COURT
Dec. 27. 2018
Date

/s/Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

s35
ISSUED AS A MANDATE: December 27. 2018

